    THE CIVIL DIVISION’S 

LAPTOP COMPUTER ENCRYPTION 

  PROGRAM AND PRACTICES



      U.S. Department of Justice 

    Office of the Inspector General 

             Audit Division 


          Audit Report 09-33 

              July 2009 

                               TABLE OF CONTENTS
                                                                                    Page

THE CIVIL DIVISION’S LAPTOP COMPUTER ENCRYPTION 

PROGRAM AND PRACTICES...................................................                1


     Introduction ...................................................................   1      

     OIG Audit Approach .......................................................         2

     OIG Results in Brief ........................................................      3

     Background ....................................................................    4      

     Finding and Recommendations                    

     Civil Division’s Efforts to Ensure Safeguards Over


     DOJ Data on Laptop Computers Need Improvement ..............                       13 

     Conclusion......................................................................   20 

     Recommendations ..........................................................         20         


STATEMENT ON INTERNAL CONTROLS..................................                        22 


STATEMENT ON COMPLIANCE WITH LAWS 

AND REGULATIONS ..............................................................          23 


APPENDIX I:           OBJECTIVES, SCOPE, AND METHODOLOGY ..                             24 


APPENDIX II:          ACRONYMS ..................................................       26 


APPENDIX III: DOJ PROCUREMENT GUIDANCE DOCUMENT
              08-04, SECURITY OF SYSTEMS AND DATA, 

              INCLUDING PERSONALLY IDENTIFIABLE


              INFORMATION .............................................                 27 


APPENDIX IV:          SAFEGUARDS AGAINST AND RESPONDING 

                      TO THE BREACH OF PERSONALLY 

                      IDENTIFIABLE INFORMATION .....................                    31 


APPENDIX V:           PROTECTION OF DEPARTMENT SENSITIVE 

                      INFORMATION ON LAPTOP AND MOBILE


                      COMPUTING DEVICES ..................................              53 


APPENDIX VI:          CIVIL DIVISION MANAGEMENT’S 

                      RESPONSE ...................................................      54

APPENDIX VII: OFFICE OF THE INSPECTOR GENERAL 

              ANALYSIS AND SUMMARY OF ACTIONS 

              NECESSARY TO CLOSE THE REPORT .............                               59


                        THE CIVIL DIVISION’S 

                    LAPTOP COMPUTER ENCRYPTION 

                      PROGRAM AND PRACTICES 



Introduction

      Significant losses of sensitive data and personally identifiable
information (PII) have occurred in both the government and in the private
sector over the past few years.1 For example, in May 2006 the Department
of Veterans Affairs (VA) reported that a laptop computer containing personal
information on approximately 26 million veterans and active duty military
personnel had been stolen, and an investigation determined that the laptop
was not encrypted.2 As a result, in February 2009 a federal judge approved
the government’s plans to pay $20 million for out-of-pocket expenses for
credit monitoring or physical symptoms of emotional distress to veterans
exposed to possible identity theft resulting from the laptop loss.

        On October 3, 2008, the Office of the Inspector General (OIG) received
a Department of Justice Computer Emergency Readiness Team (DOJCERT)
alert indicating that two unencrypted laptop computers were stolen from the
offices of a consulting firm in Washington, D.C. that was performing
litigation support work for the Civil Division.

        The stolen laptops included PII of Civil Division attorneys, the
consultant’s employees, plaintiffs, and potentially litigation sensitive
information in support of the government’s defense of sensitive civil
litigation.

      As a result of this incident, the OIG initiated this audit to assess the
adequacy of laptop computer encryption deployment practices in the Civil
Division.




       1
         The term “personally identifiable information” refers to information that can be
used to distinguish or trace individuals’ identity, such as their name and social security
number.
       2
         Encryption is the use of algorithms (i.e., mathematically expressed rules)
to encode data in order to render it readable only for the intended recipient.


                                              1

OIG Audit Approach

       Our audit objectives were to determine whether the Civil Division
complies with federal and Department of Justice (DOJ) policies regarding:
(1) the use of whole disk encryption on the laptop computers that Civil
Division employees, contractors, subcontractors, and other vendors use to
process DOJ sensitive and classified information; and (2) encryption
certification procedures for the laptop computers of contractors,
subcontractors, and other vendors providing services to the Civil Division.

     The scope of our audit included two types of laptop computers:
(1) laptops owned by the Civil Division, and (2) laptops owned by
contractors, subcontractors, and other vendors working for the Civil Division.
The laptop computers owned by the Civil Division are mostly “pooled”
laptops that are loaned to Civil Division employees and to contractor and
subcontractor employees on an as-needed basis. All Civil Division-owned
laptop computers are authorized to process “sensitive but unclassified”
information.

       During our audit, we interviewed Justice Management Division (JMD),
Civil Division, and contractor personnel with responsibility for encryption
policy development and deployment practices. Additionally, we interviewed
JMD’s Contracting Officer responsible for finalizing contractual agreements
between service vendors and the Civil Division regarding security
requirements for laptop computers. We also reviewed the Civil Division’s
contract documents for litigation support services. Within the Civil Division,
we interviewed the Contracting Officer’s Technical Representative and the
Counsel to the Chief Information Officer. We also interviewed key Civil
Division personnel responsible for the laptop computer loan process,
security, incident reporting, and encryption installation.

     In addition, we tested a judgmental sample of 49 of 244 Civil Division-
owned laptop computers contained in the Civil Division’s official property
management system, ARGIS. We tested whether these laptops were
encrypted, were included in the Civil Division’s inventory system, and
whether they displayed the required warning banners.

       The Civil Division did not maintain an inventory of laptops owned by
contractors, subcontractors, and vendors. Therefore, we performed testing
to estimate the number of contracted litigation support providers that used
non-Civil Division-owned laptop computers. We surveyed 107 (20 percent)
of 540 vendors and received 83 responses. Thirty-nine of the respondents
stated that they used their own laptops to process DOJ data on behalf of the
Civil Division. We surveyed these 39 respondents on whether the laptops


                                       2

were encrypted and whether they had received the required security
instructions for protecting DOJ data. We also requested more information
surrounding the Civil Division contractor’s loss of the two unencrypted
laptops that occurred in October 2008.

OIG Results in Brief

Civil Division-Owned Laptop Computers

      We found that all 46 Civil Division-owned operational laptop computers
we tested were encrypted and compliant with DOJ requirements.3 However,
we identified weaknesses in the Civil Division’s laptop inventory,
documentation, and warning banners.

      The Civil Division was unable to produce an accurate inventory of the
universe of laptop computers it owns from ARGIS, the official property
management system. During our review, we were provided two sets of
substantially different data for the number of laptops the Civil Division
owned. The Civil Division’s data in the ARGIS database identified 244 Civil
Division-owned laptop computers, while a laptop tracking database used by
the Civil Division’s Office of Litigation Support (OLS) identified 136 laptop
computers.4 We performed limited testing of both data sources and found
discrepancies between the two systems, although we found more
discrepancies in ARGIS than in the OLS laptop tracking database. For
example, two laptop computers listed on the OLS database printout were not
contained in the ARGIS database. In addition, at least 57 of the laptop
computers identified within ARGIS were previously excessed.

      The Civil Division maintained four unencrypted, non-operational
laptops for operating system re-imaging purposes. We found that these
laptops were not appropriately labeled for this purpose. In our judgment,
these laptops should be labeled to minimize the risk of having the
unencrypted laptop computers inadvertently deployed for operational use.




       3
         Our test sample also included three of the four Civil Division-owned non-
operational, unencrypted laptops that were used for operating system re-imaging purposes.
       4
         As we explain later in the report, Civil Division officials stated that ARGIS, which is
a system developed by the Department’s Justice Management Division, was not reliable.
Therefore, they developed their own database to track Civil Division laptop computers.



                                               3

     Further, 37 of the 49 laptop computers we tested did not employ a
DOJ-required system warning banner.5 Warning banners are important
safeguards because they alert potential system users that they are about to
access a federal computer system and that there are ramifications for illegal
and unauthorized system use.

Non-Civil Division-Owned Laptop Computers

      We found a serious weakness concerning unencrypted laptop
computers used by Civil Division contractors, subcontractors, and vendors.
Thirty-one of 39 (79 percent) of the contractor, subcontractor, and vendors
responding to our survey stated that their laptops used for processing DOJ
data on behalf of the Civil Division were not encrypted.

      We also found that the Civil Division was not providing security
instructions to contractors, subcontractors, and other vendors for protecting
DOJ data on their laptop computers. Specifically, 48 percent of the survey
respondents stated that vendors had not received security instructions for
protecting DOJ data.

Background

        The DOJ’s Civil Division, which has approximately 1,370 employees,
represents the United States, its departments and agencies, members of
Congress, Cabinet officers and other federal employees in federal litigation.
Its litigation efforts involve national security issues; benefit programs;
energy policies; commercial issues such as contract disputes, banking,
insurance, patents, fraud, and debt collection; accident and liability claims;
and violations of the immigration and consumer protection laws. As a result,
the Civil Division handles sensitive data containing PII.

      In its work, the Civil Division also uses contractors, subcontractors,
and other vendors (such as expert witnesses, specialists, and consultants) to
assist with its wide range of duties. The two major contract methods used
by the Civil Division to obtain litigation support services are the Mega 3 and


       5
          DOJ Information Technology Security Standard, Access Control (AC) Version 2.2
(control AC-08), requires that all DOJ systems display an approved notification message
before granting access to the system. The warning banner is required to be designed to
remain on the laptop computers’ screen until the user takes explicit actions to log on to the
information system. It warns the potential user of DOJ system access criteria and
ramifications for illegal and unauthorized system use. The warning banner also contains
information to relay privacy and security notices.




                                              4

the Offices, Boards, and Divisions (OBD 47) contracts.6 Contracted litigation
support providers help acquire, organize, develop, and present evidence
throughout the litigation process. As of November 2008, approximately 540
contractors, subcontractors, and other vendors provided litigation support to
the Civil Division.

        The Civil Division reported to us that most of its Mega 3 contracted
litigation support providers do not use laptop computers. However, when
laptop computers are needed by contractors, subcontractors, and other
vendors, the Civil Division often supplies Civil Division-owned laptop
computers for their use. In some cases, however, due to time constraints
brought on by fast-approaching trial dates, contractors and subcontractors
are allowed to use their own laptops, subject to DOJ’s security requirements,
including encryption standards.

Loss of Two Unencrypted Laptop Computers

      Regarding the two stolen laptop computers from the Civil Division
consultant that occurred in October 2008, the Civil Division provided us with
detailed information identifying the types of Civil data stored on the stolen
laptops. Specifically, the laptops contained personally identifiable
information (PII) such as:

   •		 For Civil Division attorneys - names, cell and home phone numbers,
       and e-mail addresses.

   •		 For the consultant’s employees – names, home addresses, cell phone
       numbers, e-mail addresses, and possibly social security numbers.

   •		 For plaintiffs in Civil Division litigation – names and e-mail addresses
       of personnel to the extent the information may have been on a source
       document image.

       In addition to the PII, the Civil Division ascertained that both laptops
contained the consultant’s work product and other potentially litigation
sensitive information (nothing higher than SBU) in support of the
government’s defense of two cases that are currently before the U.S. Court
of Federal Claims in Washington, D.C. The laptops also contained a
significant number of source documents from several other Civil Division
cases.


      6
         The Mega 3 contracts provide automated litigation support services and the
OBD 47 contracts are used to procure the services of expert witnesses or litigation
consultants. See Appendix I, Objectives, Scope, and Methodology for more details.


                                            5

     The consultant had signed the Civil Division’s Rules of Behavior for
General Users, to obtain access to the Civil Division’s central file sharing
system, Omega, in June and July 2008 – 3 months prior to the incident.7
The Rules of Behavior specifically stated:

       “In the event data is downloaded from the system, ensure that it
       is stored upon an OLS [Office of Litigation Support - Civil
       Division] issued laptop or an appropriately encrypted device
       pursuant to OMB Memorandum 07-11.”

      However, the consultant did not comply with the Rules of Behavior
requirement to encrypt its laptop computers. Moreover, its employees failed
to adequately secure the laptop computers at the end of their work day.
The consultant explained to the Civil Division that its employees worked until
4 a.m. the morning of the incident. The employees then went home for a
few hours and returned to work around 8 a.m. to find that the laptop
computers had been stolen from the office. According to the police report,
unknown suspects gained entry into the office by breaking the locked handle
of the front interior door.

       The Civil Division took several steps after this breach, including
meeting with the consultant to discuss actions to ensure adequate controls
are implemented to protect DOJ information. As a result of the meeting, the
consultant started using encryption software on its laptop computers to meet
the Civil Division Rules of Behavior requirement that was previously signed
by its employees. The consultant also discussed additional physical security
requirements with its building managers to assist with preventing future
thefts.

      The Civil Division provided us with a memo dated March 17, 2009, that
documented the Civil Division’s impact assessment activities related to the
data loss. This document states that the Civil Division was able to quickly
confirm with reasonable accuracy information about the volume, type, and
sensitivity of data affected by this data loss incident and took steps to assess
the impact the loss presented.

      In addition, attorneys were able to provide prompt notice to the Court
of Federal Claims and counsel for the affected defendants so they could
assess the impact upon their clients. Further, the attorneys communicated
with the consultant and another federal agency to determine whether its

       7
           Omega is the Civil Division’s file litigation support portal used to share common
litigation support documents between users working on the same cases.


                                               6

information could have been compromised as a result of this data loss
incident. The attorneys were able to confirm that no safeguarded
information was affected or compromised by this data loss incident.

      In our judgment, this loss was a serious security breach, and it should
serve as an impetus for the Civil Division, as well as other DOJ components,
to ensure that all laptops computers used in support of its work be properly
encrypted.

Laptop Encryption Policy for DOJ Employees

      DOJ Order 2640.2F establishes laptop encryption policy for DOJ
employees. Chapter 2, section 12 states that information on mobile
computers or devices (e.g., notebook computers, personal digital assistants)
and removable media shall be encrypted using a National Institute of
Standards and Technology, Federal Information Processing Standards (FIPS)
140-2 validated or NSA approved encryption mechanisms.

Laptop Encryption Policy for Contractors

       On March 20, 2008, the Department’s Senior Procurement Executive
issued the DOJ Procurement Guidance Document (PGD) 08-04, Security of
Systems and Data, Including Personally Identifiable Information. PGD 08-04
sets forth a security clause addressing Department systems and data,
including provisions governing the use of laptops by contractors, that must
be included in all current and future contracts where a contractor handles
data that originated within the Department, data that the contractor
manages or acquires for the Department, and data that is acquired in order
to perform the contract and concerns Department programs or personnel.
In addition, the contractor must comply with all security requirements
applicable to Department systems, and the use of contractor-owned laptops
or other media storage devices to process or store data covered by this
clause is prohibited until the contractor provides a letter to the contracting
officer certifying the following requirements:

   1. Laptops must employ encryption using a FIPS 140-2 approved 

      product;



   2. The contractor must develop and implement a process to ensure that
      security and other applications software is kept up-to-date;

   3. Mobile computing devices must utilize anti-viral software and a 

      host-based firewall mechanism; 




                                      7

   4. The contractor must log all computer-readable data extracts from
      databases holding sensitive information and verify each extract
      including sensitive data has been erased within 90 days or its use is
      still required. All DOJ information is considered sensitive information
      unless designated as non-sensitive by the Department;

   5. Contractor-owned removable media, such as removable hard drives,
      flash drives, CDs, and floppy disks, containing DOJ data, must not be
      removed from DOJ facilities unless encrypted using a FIPS 140-2
      approved product;

   6. When no longer needed, all removable media and laptop hard drives
      shall be processed (sanitized, degaussed, or destroyed) in accordance
      with security requirements applicable to DOJ;

   7. Contracting firms shall keep an accurate inventory of devices used on
      DOJ contracts;

   8. Rules of behavior must be signed by users. 	These rules must address
      at a minimum: authorized and official use; prohibition against
      unauthorized users; and protection of sensitive data and personally
      identifiable information; and

   9. All DOJ data will be removed from contractor-owned laptops upon
      termination of contractor work. This removal must be accomplished in
      accordance with DOJ IT Security Standard requirements. Certification
      of data removal will be performed by the contractor’s project manager
      and a letter confirming certification will be delivered to the CO within
      15 days of termination of contractor work.

      These requirements also apply to all subcontractors who perform work
in connection with Department contracts. For each subcontractor, the
contractor must certify that it has required the subcontractor to adhere to all
such security requirements. Any breach by a subcontractor of any of the
provisions is attributable to the contractor.

      According to PGD 08-04, all current Department contracts need to be
modified to include the applicable clause, within 60 days of the date of the
issuance of the guidance, which was March 20, 2008. Thus, there is a 60-
day grace period on all current contracts, after which, under the security
clause, laptops or devices not covered by certification letters may not be
used on DOJ contracts. A request for a waiver from the requirement to
include these clauses, or any deviations from the language of these clauses
(except those that are more stringent), must be made in writing to the


                                       8

Senior Procurement Executive. According to the Senior Procurement
Executive, permission for a deviation or waiver would only be granted in
unusual circumstances.

Civil Division’s Request for a Waiver of Implementation of PGD 08-04

       In July 2008, the Civil Division issued a memorandum to the Senior
Procurement Executive in response to the PGD 08-04 document in which the
Civil Division requested an exemption from the requirement to incorporate
the security clause into the Mega 3 and the OBD 47 contracts.8 A wide
range of professionals are hired under the Mega 3 contracts, such as project
managers, law clerks, paralegals, trial consultants, courtroom presentation
specialists, technical writers, and programmers. The OBD 47 contracts hire
experts and consultants.

     The Civil Division described the following reasons for requesting the
waiver on the Mega 3 contracts:

           •		 The contracts are worth hundreds of millions of dollars, and
               changing the security requirements would require renegotiating
               the rates for each and every fixed line item affected by the
               security clause. The Government would be at a great
               disadvantage if it had to renegotiate these competitively-
               procured contract rates.

           •		 The Civil Division was not in a position to certify all contractor,
               subcontractor, and vendor processing systems and shops. It
               estimated that certification of each shop would take 6 months,
               and cost about half a million dollars. The Civil Division stated
               that it did not have the resources or the funds for these
               certifications.

           •		 The Civil Division believed that work performed under the Mega
               3 contracts was stringently controlled through existing
               mechanisms and procedures. For example, the vendor facilities
               are controlled – locked at all times, sign-in sheets, escorted
               access for visitors. All contractor personnel working for Mega 3
               complete the SF-85P and are cleared to work on Civil Division



       8
         As we explain later in this report, the Civil Division’s request was to exempt them
from the security clause requirement for their contracts, and not to exempt its contractors
and subcontractors laptops from the encryption requirement.



                                              9

               contracts, sign non-disclosure agreements and are required to
               read and abide by standard rules of behavior.9

     The Civil Division also described the following reasons for requesting
the waiver for other contract vehicles including the OBD 47 contracts:

            •		 The Civil Division’s Assistant Attorney General would shortly
                issue guidance to clarify which data is “sensitive,” and Civil
                Division attorneys and staff would be given additional training
                regarding the protection of sensitive data.10

            •		 The Civil Division would implement the agreed-upon security
                clause on new contracts as they are issued. The Civil Division
                requested an exemption on the more than 1,500 current active
                contracts because attempting to retrofit these already existing
                contracts would require resources it does not have, and lead to
                its losing many current experts and consultants midway through
                litigation.

      In August 2008, JMD responded that a blanket exemption would not
be possible without further assurance that sensitive data was appropriately
safeguarded. With respect to the Mega 3 contracts, JMD asked that the Civil
Division provide the following additional documentation:

            1. Data security guidance and instructions that were issued to
               vendors;

            2. Written acknowledgement from the contractors that they have
               received and accepted that data security guidance and
               instructions;

            3. A statement by contractors agreeing to provide the data security
               guidance and instructions to all applicable employees and
               subcontractors and to provide adequate security training; and




       9
          The Standard Form (SF) 85P is the Questionnaire for Public Trust Positions that is
used by the government to conduct background investigations and reinvestigations to
establish that applicants or incumbents either employed by the Government or working for
the Government under contract, are suitable for the job and eligible for a public trust or
sensitive position.
       10
          Civil Division officials stated that they were waiting on further guidance from JMD
regarding possible approaches for protecting sensitive data.


                                             10 

           4. A more detailed description of the steps that were taken and
              would be taken to ensure that data security measures are
              implemented and enforced.

      With respect to the other contract vehicles, the Senior Procurement
Executive informed the Civil Division that he was willing to consider such an
exemption for contracts that expire within a reasonably short period of time,
assuming the Civil Division had a plan in place for implementing the security
requirements on new contracts. He also stated that he was concerned about
contracts that go on for longer periods. The Senior Procurement Executive
asked the Civil Division for further information as to the duration of these
current active contracts, and for the Civil Division to describe its plan for
mitigating security risks for these contracts, particularly the ones that are
not expiring within a reasonably short period of time.

      In December 2008, as requested, the Civil Division provided JMD the
following documentation to support the steps that the Civil Division had
taken and planned to take to ensure that data security measures were
implemented and enforced for the Mega 3 contracts:

           1. Excerpts from the Mega 3 contract and the Mega 3 Contract Staff
              IT Security Guidance which included a revised Rules of Behavior
              dated October 1, 2008;11

           2. Written acknowledgement from the contractors that they
              received and accepted the data security guidance and
              instructions;

           3. Written statements from the contractors that they will provide
              this guidance to their employees and subcontractors and develop
              adequate security training; and

           4. More detailed descriptions of the steps the Civil Division has
              taken to strengthen the Mega 3 information technology security
              policies and procedures.12


      11
          The October 1, 2008, Rules of Behavior required that contractors encrypt all
Departmental data stored on transportable/mobile computers (including laptops) and on
removable media (thumb drives, compact disks, floppy disks, etc.) being transported
outside the Departments physical perimeter.
      12
           The Civil Division’s plan to strengthen security procedures for the Mega 3
contracts included updating the existing security requirements, ensuring contractors
acknowledgment of the security requirements, conducting random audits of contractor
equipment (laptops) and facilities, and developing a training plan.


                                            11 

      The Civil Division did not provide JMD any response or documentation
for the other contract vehicles, which would have included the OBD 47
contracts.

       In January 2009, after reviewing the documentation provided by the
Civil Division, the Senior Procurement Executive granted the waiver to
exempt the security clause from being incorporated into the Mega 3
contracts. However, this waiver did not exempt contractor laptops from
encryption requirements. This waiver was granted on the condition that the
Civil Division implement clarifying revisions to the information technology
security guidance for the Mega 3 contracts by the next quarterly update,
which will be May 25, 2009.

      The Senior Procurement Executive did not address any other contract
vehicles in his January 2009 memo. The waiver only applied to the Mega 3
contracts and did not apply to the OBD 47 contracts. We determined during
our audit that the Mega 3 primary contractors had numerous subcontractors,
which totaled 166 subcontractors and the OBD 47 contract report provided
by the Civil Division identified 1,483 vendors as providing contracted
services to the Civil Division.13

Impact of the Waiver

      Although the Civil Division was granted the waiver for the Mega 3
contracts, the revised Rules of Behavior for the Mega 3 contracts still
required that contractors encrypt all Departmental data stored on laptops
and on removable media being transported outside the Department’s
physical perimeter. Therefore, regardless of the waiver, Mega 3 contractors,
subcontractors, and vendors are still required to encrypt all laptop
computers processing DOJ data.




      13
          Although the OBD 47 report identified 1,483 vendors, upon consolidation of
multiple awards to a single vendor by name, the total number of OBD 47 contracts was
assessed to be approximately 374. See Appendix 1, Objectives, Scope, and Methodology
for more details.



                                          12 

              FINDING AND RECOMMENDATIONS

       Civil Division’s Efforts to Ensure Safeguards Over DOJ Data on
       Laptop Computers Need Improvement

       The Civil Division has complied with DOJ requirements by
       ensuring that its own laptop computers are encrypted to protect
       DOJ data. However, our audit identified areas where the Civil
       Division needs to improve its security procedures to include:
       (1) ensuring that its laptop inventory is maintained accurately in
       ARGIS; (2) ensuring that documentation is maintained to verify
       the successful installation of encryption software for all of its
       laptop computers; and (3) ensuring that warning banners are
       displayed on laptop computers to alert potential system users
       that they are about to access a federal computer system.

       In addition, the Civil Division’s efforts to ensure contractor
       safeguards over DOJ data need significant improvement. We
       found that: (1) an inventory of non-Civil Division laptop
       computers was not maintained; (2) a large percentage of
       contractor laptops used to process DOJ data were not encrypted;
       and (3) contractors had not received notification of DOJ laptop
       encryption requirements.

Laptop Computers Owned by the Civil Division

Laptop Inventory

      Office of Management and Budget (OMB) Circular A-130 requires that
a complete inventory of information resources, including personnel,
equipment, and funds devoted to information resources management and
information technology, is maintained to an appropriate level of detail.

      To perform our encryption testing, it was first necessary to establish
an accurate universe of Civil Division-owned laptop computers. The majority
of laptop computers owned by the Civil Division are part of its lending
program.14 The lending program serves the laptop computer needs of Civil
Division employees as well as contractors, subcontractors, and other
vendors performing work on behalf of the Civil Division. Attorneys,

       14
          The Civil Division also had 12 laptop computers that were not used as part of its
lending pool and 4 used solely for re-imaging purposes. All Civil Division laptops were
considered in the universe sample group and subjected to selection as part of the OIG’s
encryption testing.


                                             13 

paralegals, contractors, and sub-contractors may reserve Civil Division
laptops for use. The laptops are retrieved from a lending pool and are
assigned to the requestor. Couriers pick up the laptops and deliver the
laptops to the requestor. The laptops are usually reserved for short periods
of time and returned by courier or in person.

       The Civil Division was unable to produce an accurate inventory of the
universe of laptop computers it owns from ARGIS, the official property
management system. During our review, we were provided two sets of
substantially different data for the number of laptops the Civil Division
owned. The Civil Division’s data in the ARGIS database identified 244 Civil
Division-owned laptop computers, while a laptop tracking database used by
the Civil Division’s Office of Litigation Support (OLS) identified 136 laptop
computers. Civil Division officials stated that ARGIS, which is a system
developed by the Department’s Justice Management Division, was not
reliable and that they therefore developed their own database to track Civil
Division laptop computers.

      We performed limited testing of both data sources and found
discrepancies between the two systems. Consistent with the statement
made above by Civil Division officials, we found more discrepancies in ARGIS
than in the OLS laptop tracking database. For example, two laptop
computers listed on the OLS database printout were not contained in the
ARGIS database. In addition, at least 57 of the laptop computers identified
within ARGIS had been previously excessed. In our judgment, the Civil
Division needs to reconcile the differences between the two data sources and
ensure that the laptop inventory data in ARGIS is accurate and reliable.

       We asked Civil Division officials about the discrepancy between the two
sources of data and were told that the inaccuracies in ARGIS stem from the
fact that the database is maintained by JMD and the Civil Division does not
have privileges to update the data within ARGIS. We followed up with JMD
and were told that JMD’s Property Management Services decentralized in
2007 and granted Accountable Property Officers throughout the Offices,
Boards, and Division’s the ability to insert, update, and make final
disposition changes (deletion status) to asset records. The term “deletion
status” does not mean that assets are deleted from the database but are
instead placed into a non-active status. We shared this information with
Civil Division officials and they stated that they were unaware that they had
the capabilities to perform these functions within ARGIS. As a result, the
Civil Division stated that it will reconcile information in ARGIS with their
separate laptop tracking database. In addition, in our follow-up discussions
with JMD, we were told that JMD plans to retire the official property
management system, ARGIS, in December 2009 and will deploy a new


                                      14 

inventory system in the future. If this occurs, we recommend that the Civil
Division ensure that the laptop inventory data in the replacement system is
accurate and reliable.

Encryption Test Results

       DOJ Order 2640.2F establishes the laptop encryption requirements for
DOJ employees. Chapter 2, section 12 of this order states that information
on mobile computers or devices (such as notebook computers, personal
digital assistants) and removable media shall be encrypted using FIPS 140-2
validated or NSA approved encryption mechanisms.

       To test whether laptop computers were properly encrypted, we
selected 49 of 244 laptops contained in the ARGIS database. For each
computer selected we verified that encryption software was installed and the
date the installation was completed. We verified this by having a Civil
Division staff member turn on each laptop and we visually inspected the
Pointsec logon screen. Additionally, we accessed the Pointsec software and
verified the installation date in the log management console. We found that
all 46 Civil Division-owned operational laptop computers we tested were
encrypted and complied with DOJ requirements. Our test sample also
included three non-operational, unencrypted laptops that were used for
operating system re-imaging purposes.

Other Areas of Concern

      Although encryption was the primary focus of this audit, we identified
other weaknesses in the areas of documentation and warning banners.

      Documentation

      DOJ Order 2640.2F, Audit and Accountability, requires that information
system audit records be maintained to the extent needed to enable security
monitoring, analysis, investigation, and reporting of unlawful, unauthorized,
or inappropriate information technology system activities.

      We found that documentation was not maintained by the Civil Division
to verify the successful installation of encryption software for its laptop
computers. In the Civil Division, encryption software is installed on laptops
by a technician in the Civil Division’s Office of Litigation Support. Once the
encryption installation is completed, the laptop computer is submitted to the
technician’s supervisor for review and approval to be deployed.




                                      15 

      Although the Civil Division stated that it does not allow any
non-encrypted laptop computers to be deployed, documentation was not
maintained to evidence when or if the encryption software was installed. In
the event that the laptop computer is lost, the Civil Division would not be
able to provide sufficient evidence that the encryption software was
appropriately installed.

       We also have a concern about the four laptop computers used by Civil
Division’s OLS to re-image other laptop computer’s encryption software. The
Civil Division told us that encryption software could not be installed or it
would impede the re-imaging process and that these laptop computers are
never deployed for regular use. However, the only indicator the Civil
Division used to distinguish its re-imaging laptop computers from the loaner
laptop computers was the lack of a KIT number on the OLS laptop tracking
database printout.15 No warning labels were attached to the re-imaging
laptop computers to indicate their special use or differentiate it from other
Civil Division laptops available for storing sensitive and PII data. In our
judgment, these computers should be clearly labeled that they are not
encrypted and should indicate that they not be used for purposes other than
re-imaging. Without such clear notice, the Civil Division runs the risk of
having the laptop computers inadvertently deployed for operational use.

       Warning Banners

       DOJ Information Technology Security Standard, Access Control (AC)
Family Version 2.2 (control AC-08), requires that all DOJ systems display an
approved notification message before a user accesses the computer system.
The warning banner is required to remain on the laptop computer’s screen
until the user takes explicit actions to log on to the information system.
Warning banners alert potential system users that they are about to access
a federal computer system and that there are ramifications for illegal and
unauthorized system use.

       We found that 37 of the 49 (76 percent) Civil Division laptop
computers we tested did not employ a DOJ system warning banner.16
Further examination of the Civil Division’s laptop computers revealed that
this security violation occurred because the laptop computers used to re-
image other laptop computers did not contain the required warning banner.


       15
          A KIT number is the unique identifier used by the Civil Division to track laptop
inventory in the OLS database.
       16
           This non-statistical sample design does not allow projection of the test results to
all laptops. See Appendix 1 for more details.


                                              16 

We discussed this issue with Civil Division officials and were told that this
was an oversight.

       As a result of the issues we identified pertaining to Civil Division
laptops, the Civil Division has updated its security procedures. Civil Division
officials provided us with a laptop administrator guide and a screen printout
from their laptop tracking database and stated that the Civil Division will
verify that the encryption installation date and warning banners are
employed on its laptops prior to deployment.

Laptop Computers Owned by Contractors and Subcontractors

Laptop Inventory

      We asked the Civil Division for an inventory of non-Civil Division laptop
computers used by its contractors, subcontractors, and other vendors
performing litigation support on Civil Division contracts and we were told
that the Civil Division does not maintain such an inventory. During this
audit, a Civil Division official told us that it will begin to maintain an
inventory for its contractor, subcontractor, and vendor laptops.

      The DOJ Procurement Guidance Document (PGD) 08-04 security
clause also requires that contracting firms must keep an accurate inventory
of devices used by contractors, subcontractors, and other vendors on DOJ
contracts. Furthermore, the contractor must certify, in writing with the
contracting officer, that it has met this requirement.

      Because the Civil Division did not maintain laptop inventory
information on its contractors and subcontractors, we conducted a survey to
estimate the number of contracted litigation support providers that used
non-Civil Division-owned laptop computers on Civil Division tasks.

      We surveyed 107 (20 percent) of the 540 Civil Division’s contractors,
subcontractors, and other vendors located throughout the United States and
abroad. We received 83 responses to our survey. We found that 39 (47
percent) of the 83 vendor responses indicated they used non-Civil Division
laptop computers to process Civil Division data. The remaining 44 responses
from the contractors indicated that they did not use a laptop computer for
their Civil Division work.

      In our view, the lack of an inventory of contractor and subcontractor-
owned laptops is a serious deficiency. Without an inventory, the Civil
Division is at risk of not being able to account for non-Civil Division laptop



                                       17 

computers that are authorized to process DOJ data and cannot ensure that
appropriate safeguards are in place.

Encryption Test Results for Contractors

       PGD 08-04 requires that laptops owned by contractors and
subcontractors must be encrypted. We found serious deficiencies with the
level of encryption employed on laptop computers owned by contractor,
subcontractor, and other vendor employees working on Civil Division
business. Of the vendors responding that they used their own laptop
computers for Civil Division work, 31 of the 39 (79 percent) stated that their
laptops were not encrypted, while the remaining 8 (21 percent) responded
that their laptops were installed with FIPS 140-2 approved encryption
software.

      The 31 vendors using non-encrypted laptops were on both the Mega 3
and OBD 47 contracts. Specifically, there were 4 Mega 3 and 27 OBD 47
contractors using their own laptops without encryption installed.17 Although
the Civil Division was granted a waiver for the Mega 3 contracts, the Civil
Division Rules of Behavior for Mega 3 requires that contractors process DOJ
data on encrypted laptops. Moreover, the OBD 47 contractors did not
receive a waiver from the requirement to incorporate the security clause into
the OBD 47 contracts that requires laptop encryption. Therefore, these 31
vendors for both Mega 3 and OBD 47 contracts should have been using
encryption software on their laptops.

Security Awareness

       DOJ Order 2640.2F, Awareness and Training, requires that managers
and users of DOJ information are aware of the security risks associated with
their activities and of the applicable laws related to the security of DOJ data.

      We found that the Civil Division had distributed notifications of laptop
encryption requirements to some of its litigation support service providers.
However, many contractors, subcontractors, and vendors had not received
such notifications. In our survey, 40 of the 83 responses (48 percent) from
vendors indicated that they had not received security instructions for
protecting DOJ data. Of the 40 vendors that had not received security

       17
          During the audit, we provided the Civil Division with the names of the 4 Mega 3
subcontractors that had unencrypted laptops. The Civil Division followed up with these 4
subcontractors and provided us with additional information indicating that mitigating steps
are being taken by the subcontractors to safeguard DOJ data. In addition, the Civil Division
has drafted further IT security training guidance for all Mega 3 contractors and
subcontractors.


                                            18 

instructions, 6 were from the Mega 3 and 34 were from the OBD 47
contracts.

     The Civil Division’s Director of Litigation Support stated that the Mega 3
contractors, subcontractors, and vendors are made aware of the importance
of laptop encryption and security requirements, through weekly meetings
that are held with the vendors that are required to manage and oversee
their own staff in regards to encryption. Also, IT security guidelines are
posted on the Civil Division’s internal website, which contractors can access,
after agreeing with the requirements of the Civil Division’s Rules of Behavior.

     However, according to a Civil Division Official for the OBD 47 contracts,
these contractors are not specifically notified of the importance of laptop
encryption and security. The official also stated that there is nothing in the
contracts pertaining to encryption and security, but the Civil Division plan to
implement such procedures in the future. In our judgment, the OBD 47
contracts should have a Rules of Behavior requirement similar to the Mega 3
contracts already in-place.

     Civil Division officials stressed that the Mega 3 and the OBD 47
contracts are for two separate groups of contractors providing support.
During our review, we noted that there were more security controls in place
for the Mega 3 versus the OBD 47 contractors. Civil Division officials
expressed how challenging it was to obtain valuable OBD 47 contractors and
that the success of a case often depends on the testimony by experts and
consultants obtained through this contract. While Civil Division officials
recognize that enhanced security measures are needed for this group, they
expressed concern with imposing more security requirements on the OBD 47
contracts. Civil Division officials stated that the OBD 47 contractors may be
unwilling to testify if strict security requirements are forced upon them, and
this could jeopardize Civil Division cases.

      While we understand the necessity of obtaining experts and consultants
for trials, we do not fully agree that requiring encryption would unduly
burden all OBD 47 contractors, since several of these contractors stated
during our survey that encryption was installed on their laptop computers.
Failure to ensure that security awareness requirements are relayed to
vendors places DOJ data at greater risk to unauthorized disclosure. In our
judgment, it is critical that all litigation support providers be made aware of
the security requirements for handling sensitive DOJ data and that Civil
Division periodically check that such requirements are, in fact, implemented.




                                      19 

Conclusion

      We found that all 46 Civil Division-owned operational laptop computers
we tested were encrypted to protect sensitive DOJ data, in accordance with
DOJ requirements. However, our review identified weaknesses in the areas
of inventory, documentation, and warning banners that the Civil Division
needs to address. Specifically, the Civil Division should ensure that it
maintains an accurate laptop inventory in its property management system,
ARGIS. In addition, unencrypted, non-operational laptops should be marked
as such to prevent their use for operational purposes. Further, warning
banners should be displayed on all of the Division’s laptop computers to alert
potential system users that they are about to access a federal computer
system.

       With respect to non-Civil Division-owned laptop computers, we
identified significant weaknesses that need to be addressed. We found that
an inventory of non-Civil Division laptop computers was not maintained.
Also, according to surveyed participants, 79 percent of contractor laptops
used to process DOJ data were not encrypted. Moreover, almost one-half of
surveyed respondents had not received notification of DOJ laptop encryption
requirements.

      Given the sensitivity of the litigation work performed by the Civil
Division in such areas as national security, banking, and insurance, we
believe that Civil Division contractors, subcontractors, and vendors should
encrypt their laptop computers or exclusively use the Civil Division’s laptop
computer lending pool. As a result of the issues identified in this report, we
make seven recommendations to the Civil Division to enhance its safeguards
over DOJ data on laptop computers. The officials concurred with all seven
recommendations.

Recommendations

      We recommend that the Civil Division:

      1. Implement procedures for ensuring that the official inventory
         database, ARGIS, or any replacement system, maintains accurate
         and reliable information for all Civil Division laptop computers.

      2. Ensure the laptop administrator’s guide is used to document the
         successful installation of encryption software on Civil Division
         laptop computers.




                                     20 

3. Label re-imaging computers to indicate that they are not encrypted
   and not for operational use.

4. Ensure the laptop administrator’s guide is used to verify that
   system warning banners are installed on all Civil Division laptop
   computers as required by DOJ policy.

5. Develop and maintain an inventory of authorized or approved non-
   Civil Division owned laptop computers for contractors,
   subcontractors, and other entities providing contract support
   services for the Civil Division.

6. Ensure that all non-Civil Division laptop computers used to process
   DOJ data are encrypted or require contractors to use encrypted
   Civil Division provided hardware.

7. Ensure that all contract support providers are aware of security
   information procedures for handling DOJ data in accordance with
   DOJ policy.




                               21 

                  STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the Civil Division’s internal
controls was not made for the purpose of providing assurance on its internal
control structure as a whole. The Civil Division’s management is responsible
for the establishment and maintenance of internal controls.

      As noted in the Finding section of this report, we identified deficiencies
in the Civil Division’s internal controls that are significant within the context
of the audit objectives and based upon the audit work performed that we
believe adversely affect the Civil Division’s ability to ensure that DOJ data is
appropriately protected from unauthorized access, use, disclosure,
disruption, modification, or destruction.

      Because we are not expressing an opinion on the Civil Division’s
internal control structure as a whole, this statement is intended solely for
the information and use of the Civil Division and the Department of Justice.
This restriction is not intended to limit the distribution of this report, which is
a matter of public record.




                                        22 

                      STATEMENT ON COMPLIANCE 

                     WITH LAWS AND REGULATIONS 


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
Civil Division’s management complied with federal laws and regulations, for
which non-compliance, in our judgment, could have a material effect on the
results of our audit. The Civil Division’s management is responsible for
ensuring compliance with federal laws and regulations applicable to the
information security controls. In planning our audit, we identified the
following laws and regulations that concerned the operations of the Civil
Division and that were significant within the context of the audit objectives:

    •		 Senior Procurement Executive Procurement 

        Guidance Document (PGD) 08-04, 

    •		 OMB M-07-16,
    •		 Protection of Department Sensitive Information on Laptop and Mobile
        Computing Devices,
    •		 OMB Circular A-130,
    •		 DOJ Order 2640.2F, and
    •		 DOJ IT Security Standards.

      Our audit included examining, on a test basis, the Civil Division’s
compliance with the aforementioned laws and regulations that could have a
material effect on the Civil Division’s operations. We interviewed key
personnel within the Civil Division, as well as performed a physical review on
selected Civil Division-owned laptop computers. Additionally, we contacted a
select group of vendors contracted to provide litigation support services to
the Civil Division.

       As noted in the Finding section of this report, we found that tested
Civil Division-owned laptop computers were encrypted as required by DOJ
policy. However, improvements are needed with the Civil Division’s laptop
computers program and practices in the areas of laptop inventory and
warning banners. Significant improvements are required on the use of
non-Civil Division laptop computers by litigation support providers.




                                      23 

                                                                APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       This audit was performed to assess the Civil Division’s laptop computer
encryption program and practices. Specifically, our audit objectives were to
determine whether the Civil Division complies with federal and DOJ policies
regarding: (1) the use of whole disk encryption on employees’, contractors’,
subcontractors’, and other vendors’ laptop computers used to process DOJ
sensitive and classified information; and (2) laptop computers’ encryption
certification procedures for contractors, subcontractors, and other vendors
providing services to the Civil Division.

       Our audit covered a 2-month period from November 12, 2008, through
January 16, 2009. We performed field work on-site at the Civil Division’s
offices in Washington, D.C. During the audit period, key JMD, Civil Division,
and contractor personnel with responsibilities related to encryption policy
development and deployment practices were interviewed. We interviewed
JMD’s Contracting Officer responsible for finalizing contractual agreements
between service vendors and the Civil Division and asked specific questions
regarding security requirements for laptop computers. We also reviewed the
Civil Division’s contract documents for litigation support services.

       Within the Civil Division, we interviewed the Contracting Officer’s
Technical Representative, and Counsel to the Chief Information Officer, as
well as, key personnel responsible for tracking the loan process of laptop
computers, laptop security, incident reporting, and laptop encryption
installation.

      Our testing of Civil Division laptop computers was conducted by
judgmentally selecting a sample of 49 of 244 of the Civil Division’s laptop
computers identified within the official ARGIS database to be tested as part
of the physical encryption verification process. This non-statistical sample
design does not allow projection of the test results to all laptops.

      Because the Civil Division did not maintain laptop inventory
information on its contractors and subcontractors, we performed testing to
estimate the number of contracted litigation support providers that used


                                     24 

non-Civil Division-owned laptop computers. To accomplish this we
performed a survey of contractors, subcontractors, and other vendors from
the two major contract methods used by the Civil Division to obtain litigation
support services – Mega 3 and Office, Boards, and Division (OBD) contracts.

      The Mega 3 contracts were awarded to three primary contractors:
CACI International Inc., Labat-Anderson Incorporated, and Lockheed Martin.
As of November 2008, each primary contractor had numerous
subcontractors, which totaled 166 subcontractors. The Civil Division
provided the OIG with documents to evidence that the three primary
contractors for the Mega 3 contracts did not use non-Civil Division-owned
laptop computers to process Civil Division data. Therefore, the primary
contractors were not included in our survey.

       As of November 2008, the OBD 47 contract report provided by the
Civil Division identified 1,483 vendors as providing contracted services to the
Civil Division. Upon consolidation of multiple awards to a single vendor by
name, the total number of OBD contracts was assessed to be approximately
374.

      Therefore, as of November 2008, our universe of the Civil Division’s
contractors, subcontractors, and other vendors totaled 540 (166 + 374).
We surveyed 107 (20 percent) of the 540 vendors and received 83
responses. The responses are detailed in the Findings and
Recommendations section of this report.




                                      25 

                                                  APPENDIX II 




                         ACRONYMS

DOJ       Department of Justice
DOJCERT   Department of Justice Computer Emergency Readiness Team
JMD       Justice Management Division
OBD       Office, Boards, and Division
OIG       Office of the Inspector General
OLS       Office of Litigation Support
OMB       Office of Management and Budget
PII       Personally Identifiable Information




                              26 

                                                                                            APPE
                                                                                               ENDIX II
                                                                                                      II 




                                                               u. s. DeparhnentofJustice



  MAR 20      m                                                WDShillglO", D.C. 20530




MEMORANDUM FOR BUREAU PROCUREM ENT CHIEFS

FROM :           Michael H. Allen       f~d ~
                 Senior Procurement Executive

SUBJECT:         001 Procurement Guidance Document 08-04, Security of Systems
                 and Data Including Personally Identifiable Information

My memorandum of January 18, 2008, notified you of recent instances of contractor loss of
equipment containing sensiti ve data relat ing to Department programs or personnel. Section A
of this guidance document sets forth a required security clause addressing Department systems
and data, including provisions governing the use of laptops by contractors, to be included in all
current and future contracts where a contractor handles data that originated within the
Department, data that the contractor manages or acq uires for the Department, and/or data that
is acq uired in order to perfonn the COntract and concerns Department programs or personnel.
Please note that in Section A, paragraphs a, b, and d apply to all data, even data that may not
be personall y identifiable infonnation (P I1)'. Section B of thi s guidance document sets forth
a required clause that must be used in contracts invo lving personally identifiabJe infornlation
obtained by the Department from a contractor, such as an infonnation reseller or data broker.
This guidance document supersedes Procurement Gu idance Document 06~ 1O.

   A.    Sec urity of Systems and Data, Includin g Personally Identifiable Information.

   The fo Howing clause must be used in any contract where the contractor handles data that
   originated within the Department, data that the contractor manages or acquires for the
   Department, and/or data that is acquired in order to perfonn the contract and concerns
   Department programs or personnel.




   I The term "personally identifiable informa tion," as defined by OMB, means any information about an
   individual maintained by an agency, including, but not limited to, education, financial transactions, medical
   history, and criminal or employment history and information which can be used to distinguish or trace an
   individual's identity, such as their name, social security number, date and place of birth, mother's maiden
   name, biometric records, etc., including allY other personal information which is linked or linkable to an
   individual.




                                                       27 

Security of Systems and Data. Including Personally Identifiable Data.

a.     Systems Security

The work to be perfonned under this contract requires the handling of data that originated
within the Department, data that the contractor manages or acquires for the Department,
andlor data that is acquired in order to perfonn the contract and concerns Department
programs or personnel.

For all systems handling such data, the contractor shall comply with all security
requirements applicable to Department of lustice systems, including but not limited to
all Executive Branch system security requirements (e.g., requirements imposed by OMB
and NIST), DOl IT Security Standards, and DOl Order 2640.2E. The contractor shall
provide DOl access to and infonnation regarding the contractor's systems when
requested by the Department in connection with its efforts to ensure compliance with
all such security rcquircments, and shall otherwise cooperate with the Department in
such efforts. DOl access shall include independent validation testing of controls,
system penetration testing by DOl, FISMA data reviews, and access by the DOl
Office of the Inspector General for its reviews.

The use of contractor-owned laptops or other media storage devices to process or store
data covered by this clause is prohibited until the contractor provides a letter to the
contracting officer (CO) certifying the following requirements:

1. Laptops must employ encryption using a NIST Federal Infonnation Processing
   Standard (FIPS) 140-2 approved product;
2. The contractor must develop and implement a process to ensure that security and
   othcr applications software is kept up-to-date;
3. Mobile computing devices will utilize anti-viral software and a host-based firewall
   mechanism;
4. The contractor shall log all computer-readable data extracts from databases holding
   sensitive infonnation and verify each extract including sensitive data has been erased
   within 90 days or its use is still required. All DOl infonnation is sensitive
   information unless designated as non-sensitive by the Department;
5. Contractor-owned removable media, such as removable hard drives, flash drives,
   CDs, and floppy disks, containing DOl data, shall not be removed from DO] facilities
   unless encrypted using a NIST FIPS 140-2 approved product;
6. When no longer needed, all removable media and laptop hard drives shall be
   processed (sanitized, degaussed, or destroyed) in accordance with security
   requirements applicable to DO];
7. Contracting firms shall keep an accurate inventory of devices used on DO] contracts;
8. Rules of behavior must be signed by users. These rules shall address at a minimum:
   authorized and official use; prohibition against unauthorized users; and protection of
   sensitive data and personally identifiable information;




                                              28 

9. All DO] data will be removed from contractor-owned laptops upon termination of
   contractor work. This removal must be accomplished in accordance with DO] IT
   Sccurity Standard requirements. Certification of data removal will be performed by
   the contractor's project manager and a letter confirming certification will be delivered
   to the CO within 15 days of termination of contractor work;

b. Data Security

By acceptance of, or performance on, this contract, the contractor agrees that with
respect to the data identified in paragraph a, in the event of any actual or suspected
breach of such data (i.e., loss of control, compromise, unauthorized disclosure, access
for an unauthorized purpose, or othcr unauthorized access, whether physical or
electronic), the contractor will immcdiately (and in no event later than within one hour
of discovery) report the breach to the DO] CO and the contracting officer's technical
representative (COTR).

If the data breach occurs outside of regular business hours and/or neither the CO nor the
COTR can be reached, the contractor shall call the DO] Computer Emergency Readiness
Team (DOJCERT) at 1-866-US4-CERT (1-866-874-2378) within one hour of discovery
of the breach. The contractor shall also notify the CO as soon as possible during regular
business hours.

c.   Personally Identifiable Infonnation Notification Requirement

The contractor further certifies that it has a security policy in place that contains
procedures to promptly notify any individual whose personally identifiable information
(as defined by OMB) was, or is reasonably believed to have been, breached. Any
notification shall be coordinated with the Department, and shall not proceed until the
Department has made a determination that notification would not impede a law
enforcement investigation or jeopardize national security. The method and content of
any notification by the contractor shall be coordinated with, and be subject to the
approval of, the Department. The contractor assumes full responsibility for taking
corrective action consistent with the Department's Data Breach Notification Procedures,
which may include offering credit monitoring when appropriate.

d.   Pass-through of Security Requirements to Subcontractors

The requirements set forth in Paragraphs a through c above, apply to all subcontractors
who perform work in connection with this contract. For each subcontractor, the
contractor must certify that it has required the subcontractor to adhere to all such
requirements. Any breach by a subcontractor of any of the provisions set forth in this
clause will be attributed to the contractor.




                                              29 

       B.      Information RescUers or Data Brokers

    For contracts where the Department obtains Pll fro m a contractor (such as an information
    reseller or data broker) but the contractor does not handle the data described in Section A
    of this guidance document, the following clause must be used:

        lnform ation Resellers or Data Brokers

       Under this contract, the Department obtains personally identifiable information about
       individuals from the contractor. ihe contractor hereby certifies that it has a security
       policy in place which contains procedures to promptly noti fy any indi vidual whose
       personally identifiabl e information (as defined by OMB) was, or is reasonably believed to
       have been, lost or acquired by an unauthorized person while the data is under the control
       of the contractor. In any case in which the data that was lost or improperly acquired
       refl ects or consists of data that originated with the Department, or reflects sensitive law
       enforcement or national security interest in the data, the contractor shall notify the
       Department contracting officer so that the Department may determine whether
       notification would impede a law enforcement investigation or jeopardize national
       security. In such cases, the contractor shall not notify the individuals until it receives
       further instruction from the Department.

In my memorandum dated January 18,2008, I encouraged you to identi fy all current and
upcoming contracts that require the exchange of PIT and other Departmental data between the
contractor and the Department that need to include this security coverage. All current contracts
to be covered will need to be modified to include the applicable clause, within 60 days of the date
of this memorandum. Thus, there is a 60-day grace peri od on all current contracts, after which,
under the security clause, laptops or devices not covered by certification letters may not be used
on DOJ contracts. Contracting officers should alert contractors of this requirement as soon as
possible in order to avoid disruption in the use of laptops. A request fo r a waiver fro m the
requirement to include these clauses, or deviations from the language of these clauses (except
those that are more stringent), must be made in writing to the Senior Procurement Executive.
Permission for a deviation or waiver will only be granted in unusual circumstances.




                                             30 

                                                                                                       APPENDIX IV 


                                     EXECUTIVE OFFICE OF THE PRESIDENT
                                           OFF ICE OF MANAGEMENT AND B UDGET
                                                     WA SH INGTON,O C         20503


DE PU T Y OIR E CTOR
rO R I<IANAGEIooIENT

                                                            May 22, 2007
        M-07-J6

        MEMORANDUM FOR 1HE HEADS OF EXECUTIVE DEPAR1MENTS AND AGENCIES

        FROM :            Clay Johnson ill
                          Deputy Director for M ana
                                                       ~ ent
        SUBJECT:          Safeguarding Against        3IJ   J espondng to the Breach of Personally Identifiable
                          fufonnation

        Safeguarding personally identifiable information] in the possession ofthe government 31Jd
        preventing its breach are essential to ensure the govenunent retains the trust ofthe American
        public. Thi s is a responsibili ty shared by officials accOlmtable for acininistering operational and
        privacy and security JXograms.legal counsel, Agencies' Inspectors General and other law
        enforcement, and publi c and legislative affairs. It is also a flll1ction of applicable laws, Sllch as
        the Federal Informatioo Security M3IJagement Act of2002 (FISMA)2 and the Privacy Act of
                3
        1974.

        As part of the work of the Identi?, Theft Task Force,4 thi s memonmwm requires agencies to
        clevelop and implement a breach notifi cati on polic/ within 120 days. The attactunents to this
        memorandnn outline the fram ework within which agencies must develop this breach notification
        policy1 while enSllring proper safeguards :rre in place to protect the infonnation. Agencies !fJould

        1 The tenn "personally identifiable infonnation~ refers to information which can b e used to dstinguish or trace an
        individual 's identity, such as their name, social security number, biometric records, etc. alone, or when combined
        with ether personal or identifying infonnation which i s linked or linkIDle to a specific indivirual, such as date and
        rlace of birth, mether's maiden name, etc.
           TItle m cfthe E-Govemment Act of 2002, Pub, L. No. 107-347.
        l 5 U.S.C. § 552a,
        <I Executive Qder 13402 charged the Identity Theft Task Force with developing a comprehensive strategic pial for
         steps th e federal govenunent can take to combat identity theft, and recommending actions whi ch can be taken by the
        pulEc and private sectors. en April 23, 2007 the TaskForee submitted its report to the President, titled "Combating
        Identity Theft: A Strategic PI aJ ," This report is available at www.idhtft gov,
        } Foc th e purposes cf this policy, th e term " breach" is used to include the loss of control , compromise, unauthorized
         di sclosure, unauthorized acquisition, unauthorized access, 01" any similar term ref erring to situati ons where persons
         other than :uthorized users andfOl" al other than authorized purpose have access or petential access to personally
        identifiable infonnation , whether physical or electroni c,
        6 Agencies shoold use a best ju~ment standard to develop andimpl ement a breach netification policy. Using a best
        judgment stand:rd, the sensitivity of certain terms , such as personally identifiable infOimation, can be detennined in
         context For exampl e, al office rol odex contains personally identifiabl e infonnation (name, phone number, etc.). In
        this context the infonn ation probaUy wooldnot be coosidered sensitive; however, the same infonnation in a
         database cf patients a a clinic which treats contagious dsease probably would be considered sensi tive infonnation,
         Simil arty, using a best judgment standard, discar cing a document with th e author's name on th e froot (ald no other
        rersonal ly identifi aUe infonnation) into an office trashcan li kely would not warrant netifi (!2tion to US-CERT.
           Terms not specifically defined within thi s 1ifemorandum (e.g., sensitive) should be coosidered to reflect th e
         definition found in '" commonly ,"cc"Pted diction"'Y




                                                                 31 

note the privacy and security requirements addressed in this Memorandum apply to all Federal
information and information systems. 8 Breaches subject to notification requirements include
both electronic systems as well as paper documents. In short, agencies are required to report on
the security of information systems in any formant (e.g., paper, electronic, etc.). 9

In formulating a breach notification policy, agencies must review their existing requirements
with respect to Privacy and Security (see Attachment 1). The policy must include existing and
new requirements for Incident Reporting and Handling (see Attachment 2) as well as External
Breach Notification (see Attachment 3). Finally, this document requires agencies to develop
policies concerning the responsibilities of individuals authorized to access personally identifiable
information (see Attachment 4).

Within the framework set forth in the attachments, agencies may implement more stringent
policies and procedures reflecting the mission of the agency. While this framework identifies a
number of steps to greatly reduce the risks related to a data breach of personally identifiable
information, it is important to emphasize that a few simple and cost-effective steps may well
deliver the greatest benefit, such as:

    o    reducing the volume of collected and retained information to the minimum necessary;
    o    limiting access 10 to only those individuals who must have such access; and
    o    using encryption, strong authentication procedures, and other security controls to make
         information unusable by unauthorized individuals.

This Memorandum should receive the widest possible distribution within your agency and each
affected organization and individual should understand their specific responsibilities for
implementing the procedures and requirements. Materials created in response to this
Memorandum and attachments should be made available to the public through means determined
by the agency, e.g., posted on the agency web site, by request, etc.

Consistent with longstanding policy requiring agencies to incorporate the costs for securing their
information systems, all costs of implementing this memorandum, including development,



8 FISMA security requirements apply to Federal information and information systems, including both paper and
electronic [onnat.
9 A plan to review the controls for information systems not previously included in other security reviews must be
addressed in the agency's breach notification policy (e.g., timefrarne for completion of review, etc.); however,
completion of the review for those systems is not required to be finished within the 120-day timeframe for
development of the policy.
10 In this policy, "access" means the ability or opportunity to gain knowledge of personally identifiable information.




                                                        32 

implementation, notification to affected individuals, and any remediation activities, will be
addressed through existing agency resources of the agency experiencing the breach.

Because of the many alternate ways to implement a risk-based program within the framework
provided, this Memorandum, or its attachments, should not be read to mean an agency's failure
to implement one or more of the many security provisions discussed within ll would constitute
less than adequate protections required by the Privacy Act. These new requirements do not create
any rights or benefits, substantive or procedural, which are enforceable at law against the
government.

Questions about this Memorandum should be directed to Hillary Jaffe of my staff at
hjaffe@omb.eop.gov.

Attachments




11For example, FISMA or associated standards, policies, or guidance issued by OMB or tlie National Institute of
Standards and Ieclinology (NISI).




                                                      33 

Attachment 1: Safeguarding Against the Breach of Personally Identifiable Infonnation

This Attachment reemphasizes the responsibilities under existing law, executive orders,
regulations, and policy to appropriately safeguard personally identifiable information and train
employees on responsibilities in this area (Section A).12 It also establishes two new privacy
requirements and discusses five security requirements as described below (Sections B and C).

A. Current Requirements

1. Privacy Act Requirements. In particular, the Privacy Act of 1974 (Privacy Act)13 requires
each agency to:

    a. Establish Rules of Conduct. Agencies are required to establish "rules of conduct for
persons involved in the design, development, operation, or maintenance of any system of
records, or in maintaining any record, and instruct each such person with respect to such rules
and the requirements of [the Privacy Act], including any other rules and procedures adopted
pursuant to [the Privacy Act] and the penalties for noncompliance." (5 U.S.C. § 552a(e )(9))

    b. Establish Safeguards. Agencies are also required to "establish appropriate administrative,
technical, and physical safeguards to insure the security and confidentiality of records and to
protect against any anticipated threats or hazards to their security or integrity which could result
in substantial harm, embarrassment, inconvenience or unfairness to any individual on whom
information is maintained." 14

    c. Maintain accurate, relevant, timelv and complete information. The Privacy Act also
requires personally identifiable information within a system of records to be maintained in a
manner that is accurate, relevant, timely, and complete including through the use of notices to the
       15
public. It is important for agencies to fulfill their responsibilities with respect to identifying
systems of records and developing and publishing notices as required by the Privacy Act and



12 This Memorandum, or its attachments, should not be read to mean an agency's failure to implement one or more
of the many provisions ofFISMA or associated standards, policies, or guidance issued by OMB or the National
Institute of Standards and Technology (NIST) would constitute less than adequate protections required by the
Privacy Act of 1974.
13 5U.S.C. §552a.
14
   5 U.SC. § 552a (e)(lO).
15 The Privacy Act requires agencies to "maintain all records which are used by the agency in making any
determination about any individual with such accuracy, relevance, timeliness, and completeness as is reasonably
necessary to assure fairness to the individual in the detennination" in their systems of records. 5 U.S.c. §
552a(e)(5).




                                                    34 

OMB's implementing policies. 16 By collecting only the infonnation necessary and managing it
properly, agencies can often reduce the volume of information they possess, the risk to the
infonnation, and the burden of safeguarding it.

2. Security Requirements.

     Below are four particularly important existing security requirements agencies already should
be implementing:

    a. Assign an impact level to all information and infonnation systems. Agencies must follow
the processes outlined in Federal Infonnation Processing Standard (FIPS) 199, Standards for
Security Categorization ofFederal Information and Information Systems, to categorize all
infonnation and infonnation systems according to the standard's three levels of impact (i.e., low,
moderate, or high). Agencies should generally consider categorizing sensitive personally
identifiable infonnation (and infonnation systems within which such infonnation resides) as
moderate or high impact.

    b. Implement minimum security requirements and controls. For each of the impact levels
identified above, agencies must implement the minimum security requirements and minimum
(baseline) security controls set forth in FIPS 200, Minimum Security Requirements for Federal
Information and Information Systems, and NIST Special Publication 800-53, Recommended
Security Controls for Federal Information Systems, respectively.

    c. Certify and accredit infonnation systems. Agencies must certify and accredit (C&A) all
infonnation systems supporting the operations and assets of the agency, including those provided
or managed by another agency, contractor, or other source. 17 The specific procedures for
conducting C&A are set out in NIST Special Publication 800-37, Guide for the Security
Certification and Accreditation ofFederal Information Systems, and include guidance for
continuous monitoring of certain security controls. Agencies' continuous monitoring should
assess a subset of the management, operational, and technical controls used to safeguard such
infonnation (e.g., Privacy Impact Assessments).

    d. Train employees. Agencies must initially train employees (including managers) on their
privacy and security responsibilities before pennitting access to agency infonnation and
infonnation systems. Thereafter, agencies must provide at least annual refresher training to

14 The Privacy Act requires agencies to publish a notice of any new or intended use of infonnation maintained in a
system ofrecords in the Federal Register to provide an opportunity for the public to submit comments. 5 US.C §
552a(e)(4). Agencies are also required to publish notice of any subsequent substantive revisions to the use of
information maintained in the system of records. 5 US.C § 552a(e)(11). OMB Circular A-130 C"Management of
Federal Information Resources") offers additional guidance on this issue. OMB Circular A-l30, App. I, sec. 4.c.
17 44 USC 3544(b).




                                                       35 

ensure employees continue to understand their responsibilities. 18 Additional or advanced
training should also be provided commensurate with increased responsibilities or change in
duties.

Both initial and refresher training must include acceptable rules of behavior and the
consequences when the rules are not followed. For agencies implementing tele-work and other
authorized remote access programs, training must also include the rules of such programs. 19

B. Privacy Requiremeuts

1. Review and Reduce the Volume of Persoually Ideutifiable Iuformatiou.

    a. Review Current Holdings. Agencies must now also review their current holdings of all
personally identifiable information and ensure, to the maximum extent practicable, such holdings
are accurate, relevant, timely, and complete, and reduce them to the minimum necessary for the
proper performance of a documented agency function. 20 Agency-specific implementation plans
and progress updates regarding this review will be incorporated as requirements in agencies'
annual report under FISMA.

Following this initial review, agencies must develop and make public a schedule by which they
will periodically update the review of their holdings. This schedule may be part of an agency's
annual review and any consolidated publication of minor changes of Privacy Act systems of
records notices.

To help safeguard personally identifiable information, agencies are reminded they must meet the
requirements of FISMA and associated policies and guidance from the OMB and NIST. 21
FISMA requires each agency to implement a comprehensive security program to protect the
agency's information and information systems; agency Inspectors General must independently
evaluate the agency's program; and agencies must report annually to OMB and Congress on the
effectiveness of their program.

18 Agencies may schedule training to coincide with existing activities, such as ethics training. Communications and
training related to privacy and security must be job-specific and commensurate with the employee's responsibilities.
The Department of Defense, the Office of Personnel Management, and the Department of State offer agencies a
minimum baseline of security awareness training as part of the Infonnation Systems Security Line of Business.
19 Agencies should also consider augmenting their training by using creative methods to promote daily awareness of
employees' privacy and security responsibilities, such as weekly tips, mouse pads imprinted with key security
reminders, privacy screens for public use of laptops, and incentives for reporting security risks.
20 To the extent agencies are substantively performing these reviews, agencies should leverage these efforts to meet
the new privacy requirements. This provision does not apply to apply to the accessioned holdings (archival records)
held by the National Archives and Records Administration (NARA).
21 The Department of Defense and Intelligence Community establish their own policy and guidance for the security
of their information systems. 44 U.S.c. 3543(c).




                                                       36 

Within the above framework, agencies may implement more stringent procedures governed by
specific laws, regnlations, and agency procedures to protect certain information, for example,
taxpayer data, census information, and other information.

2.       Reduce the Use of Social Security Numbers.

    a. Eliminate Unnecessary Use. Agencies must now also review their use of social security
numbers in agency systems and programs to identify instances in which collection or use of the
social security number is superfluous. Within 120 days from the date of this memo, agencies
must establish a plan in which the agency will eliminate the unnecessary collection and use of
social security numbers within eighteen months. 22

    b. Explore Alternatives. Agencies must participate in government-wide efforts to explore
alternatives to agency use of Social Security Numbers as a personal identifier for both Federal
employees and in Federal programs (e.g., surveys, data calls, etc.).

c.   Security Requirements

While agencies continue to be responsible for implementing all requirements of law and policy,
below are five requirements 23 agencies must implement which derive from existing security
policy and NIST gnidance. These requirements are applicable to all Federal information, e.g.,
law enforcement information, etc.

     •     Encryption. Encrypt, using only NIST certified cryptographic modules, 24 all data on
           mobile computers/devices carrying agency data unless the data is determined not to be
           sensitive, in writing, by your Deputy Secretary25 or a senior-level individual he/she may
           designate in writing;
     •     Control Remote Access. Allow remote access only with two-factor authentication where
           one of the factors is provided by a device separate from the computer gaining access;
     •     Time-Out Function. Use a "time-out" function for remote access and mobile devices
           requiring user re-authentication after thirty minutes of inactivity;
     •     Log and Verify. Log all computer-readable data extracts from databases holding
           sensitive information and verify each extract, including whether sensitive data has been
           erased within 90 days or its use is still required; and

22 Agencies with questions addressing this assignment regarding the Paperwork Reduction Act of 1995 (44 U. S. C.
3501 et seq.) should contact their respective desk officer at the Office of Management and Budget.
23 See OMB Memo 06-16 "Protection of Sensitive Agency Information"
(www. whitehouse. gov 10m b/m em oranda/fy2006/m 06-16. pdD.
24 See NISI's website at http://csrc.nist.gov/cryptvali for a discussion of the certified encryption products.
25 Non cabinet agencies should consult the equivalent of a Deputy Secretary.




                                                       37 

   •   Ensure Understanding of Responsibilities. Ensure all individuals with authorized access
       to personally identifiable infonnation and their supervisors sign at least annually a
       document clearly describing their responsibilities.

Agencies should also contemplate and incorporate best practices to prevent data breaches.
Examples of such practices might include using privacy screens when working outside the office
or requiring employees to include laptop computers in carry-on luggage rather than checked
baggage.




                                            38 

Attachment 2: Incident Reporting and Handling Requirements

This Attachment applies to security incidents involving the breach of personally identifiable
infonnation whether in electronic or paper fonnat. For the purposes of reporting, agencies must
continue to follow existing requirements, as modified and described below.

A. Existing Requirements

1. FISMA Requirements. FISMA requires each agency to:

     •   implement procedures for detecting, reporting and responding to security incidents,
         including mitigating risks associated with such incidents before substantial damage is
         done
     •   notify and consult with:
             o the Federal infonnation security incident center
             o law enforcement agencies and Inspectors General
             o an office designated by the President for any incident involving a national security
                 system
             o any other afency or office in accordance with law or as directed by the
                 President. 2
     •   implement NIST guidance and standards 27

Federal Infonnation Processing Standards Publication 200 (FIPS 200) and NIST Special
Publication 800-53 provide a framework for categorizing infonnation and infonnation systems,
and provide minimum security requirements and minimum (baseline) security controls for
incident handling and reporting. The procedures agencies must already use to implement the
above FISMA requirements are found in two primary guidance documents: NIST Special
                                                                   28
Publication 800-61, Computer Security Incident Handling GUide ; and the concept of operations
for the Federal security incident handling center located within the Department of Homeland
Security, i.e., United States Computer Emergency Readiness Team (US_CERT)29




26 44 USC § 3544(b)(7).
27 For additional information on NISI guidance and standards, see www.nist.gov.
28 See "Computer Security Incident Handling Guide: Recommendations of the National Institute of Standards and
Technology" (http://csrc.nist. gov Ipublications/nistpubs/800-6l Isp800-6l. pdD.
29 The responsibilities of US-CERT are outlined in 44 US.C § 3546. Its complete set of operating procedures may
be found on the US-CERT website (www.us-cert.gov/federalireportingReguirements.html). Separate procedures are
in place for the Department of Defense as identified in Directive 0-8530-1 and all components report incidents to
the Joint Task Force Global Network Operations (JTF-GNO), which, in turn, coordinates directly with the US­
CERT.




                                                      39 

2. Incident Handling and Response Mechanisms. When faced with a security incident, an
agency must be able to respond in a manner protecting both its own information and helping to
protect the information of others who might be affected by the incident. To address this need,
agencies must establish formal incident response mechanisms. To be fully effective, incident
handling and response must also include sharing information concerning common vulnerabilities
and threats with those operating other systems and in other agencies. In addition to training
employees on how to prevent incidents, all employees must also be instructed in their roles and
responsibilities regarding responding to incidents should they occur.

B. Modified Agency Reporting Requirements

1. US-CERT Modification. Agencies must report all incidents involving personally
identifiable information to US-CER T. This reporting requirement does not distinguish between
potential and confirmed breaches. The US-CERT concept of operations for reporting Category I
incidents is modified as follows:

   Category l. Unauthorized Access or Any Incident Involving Personally Identifiable
   Information. In this category agencies must report when: I) an individual gains logical or
   physical access without permission to a federal agency network, system, application, data, or
   other resource; or 2) there is a suspected or confirmed breach of personally identifiable
   information regardless of the manner in which it might have occurred. Reporting to US­
   CERT is required within one hour of discovery/detection.
       • For incidents involving personally identifiable information, agencies must:
               o Continue to follow internal agency procedures for notifying agency officials
                   including your agency privacy official and Inspector General;
               o Notify the issuing bank if the breach involves government-authorized credit
                   cards; and
               o Notify US-CERT within one hour. Although only limited information about
                   the breach may be available, US-CERT must be advised so it can assist in
                   coordinating communications with the other agencies. Updates should be
                   provided as further information is obtained.
       • Under specific procedures established for these purposes, after notification by an
           agency, US-CERT will notify the appropriate officials.
       • Monthly, US-CERT will distribute to designated officials in the agencies and
           elsewhere, a report identifying the number of confirmed breaches of personally
           identifiable information and will also make available a public version ofthe report.

2. Develop and Publish a Routine Use.

   a. Effective Response. A federal agency's ability to respond quickly and effectively in the
event of a breach of federal data is critical to its efforts to prevent or minimize any consequent




                                               40 

hann. 30 An effective response necessitates disclosure of infonnation regarding the breach to
those individuals affected by it, as well as to persons and entities in a position to cooperate,
either by assisting in notification to affected individuals or playing a role in preventing or
minimizing hanns from the breach.

    b. Disclosure ofInfonnation. Often, the infonnation to be disclosed to such persons and
entities is maintained by federal agencies and is subject to the Privacy Act (5 U.S.C. § 552a).
The Privacy Act prohibits the disclosure of any record in a system of records by any means of
communication to any person or agency absent the written consent of the subject individual,
unless the disclosure falls within one of twelve statutory exceptions.3l In order to ensure an
agency is in the best position to respond in a timely and effective manner, in accordance with 5
U.S.C. § 552a(b )(3) of the Privacy Act, agencies should publish a routine use for appropriate
systems specifically applying to the disclosure of infonnation in connection with response and
remedial efforts in the event of a data breach as follows:

        To appropriate agencies, entities, and persons when (I) [the agency] suspects or
        has confirmed that the security or confidentiality of infonnation in the system of
        records has been compromised; (2) the Department has detennined that as a result
        of the suspected or confinned compromise there is a risk of harm to economic or
        property interests, identity theft or fraud, or harm to the security or integrity of
        this system or other systems or programs (whether maintained by the Department
        or another agency or entity) that rely upon the compromised infonnation; and (3)
        the disclosure made to such agencies, entities, and persons is reasonably
        necessary to assist in connection with the Department's efforts to respond to the
        suspected or confinned compromise and prevent, minimize, or remedy such
              32
        hann.

As described in the President's Identity Theft Task Force's Strategic Plan, all agencies should
publish a routine use for their systems of records allowing for the disclosure of infonnation in the
course of responding to a breach of federal data. 33 Such a routine use will serve to protect the
interests of the individuals whose infonnation is at issue by allowing agencies to take appropriate
steps to facilitate a timely and effective response, thereby improving their ability to prevent,
minimize, or remedy any hann resulting from a compromise of data maintained in their systems
of records.



30 Here, "hann" means damage, fiscal damage, or loss or misuse of information which adversely affects one or more
individuals or undermines the integrity of a system or program.
31
   5 USC §§ 552a(b)(J)-(12).
32 See Appendix B of the Identity Theft Task Force report (www.identitytheft.govireportsiStrategicPlan.pdo.
33Id




                                                     41 

Attachment 3: External Breach Notification

To ensure consistency across government, this Attachment identifies the questions and factors
each agency should consider in determining when notification outside the agency should be
                                         34
given and the nature of the notification. This Attachment does not attempt to set a specific
threshold for external notification since breaches are specific and context dependant and
notification is not always necessary or desired. The costs of any notifications must be borne by
the agency experiencing the breach from within existing resources.

A. Background

1. Harm. Breaches can implicate a broad range of harms to individuals, including the potential
for identity theft; however, this Section does not discuss actions to address possible identity theft
or fraud. Agencies are referred to the ID Theft Task Force's Strategic Plan for guidance.

2. Requirement. Agencies must implement the one specific new requirement discussed below;
i.e., develop a breach notification policy and plan (see Section B. below).

3. Threshold questions. Both the decision to provide external notification on the occasion of a
breach and the nature of the notification will require agencies to resolve a number of threshold
questions. 35 The likely risk of harm and the level of impact will determine when, what, how and
to whom notification should be given. 36

Notification of those affected and/or the public allows those individuals the opportunity to take
steps to help protect themselves from the consequences of the breach. Such notification is also
consistent with the "openness principle" of the Privacy Act that calls for agencies to inform
individuals about how their information is being accessed and used, and may help individuals
mitigate the potential harms resulting from a breach.

4. Chilling Effects of Notices. A number of experts have raised concerns about unnecessary
notification and the chilling effect this may have on the pUblic. 37 In addition, agencies should

34 These factors do not apply to an agency's notification to US-CERT. Agencies must report all incidents - potential
and confirmed - involving personally identifiable information to US-CERT.
35 Notice may not be necessary if, for example, the information is properly encrypted because the information would
be unusable.
36 See OMB's September 20, 2006 memorandum titled "Recommendations for Identity Theft Related Data Breach
Notification" for information and recommendations for planning and responding to data breaches which could result
in identity theft (www.whitehouse.gov/omb/memoranda/fy2006!task force theft memo.pdf) .
37 Federal Trade Commission, Prepared Statement of the Federal Trade Commission Before the Committee on
Commerce, Science, and Transportation, u.s. Senate, on Data Breaches and Identity Theft (Washington, D.C: June
16,2005), p. 10. In this testimony, the Federal Trade Commission raised concerns about the threshold for which
consumers should be notified of a breach, cautioning that too strict a standard could have several negative effects.




                                                       42 

consider the costs to individuals and businesses of responding to notices where the risk of hann
may be low. Agencies should exercise care to evaluate the benefit of notifying the public of low
impact incidents.

B. New Requirement

Each agency should develop a breach notification policy and plan comprising the elements
discussed in this Attachment. In implementing the policy and plan, the Agency Head will make
final decisions regarding breach notification.

Six elements should be addressed in the policy and plan and when considering external
notification:

     •   whether breach notification is required
     •   timeliness of the notification
     •   source of the notification
     •   contents of the notification
     •   means of providing the notification
     •   who receives notification: public outreach in response to a breach

To ensure adequate coverage and implementation of the plan, each agency should establish an
agency response team including the Program Manager of the program experiencing the breach,
ChiefInfonnation Officer, Chief Privacy Officer or Senior Official for Privacy, Communications
Office, Legislative Affairs Office, General Counsel and the Management Office which includes
Budget and Procurement functions. 38 A more detailed description of these elements is set forth
below:

1. Whether Breach Notification is Required

To detennine whether notification of a breach is required, the agency should first assess the
likely risk of harm caused by the breach and then assess the level of risk. Agencies should
consider a wide range ofhanns, such as hann to reputation and the potential for harassment or
prejudice, particularly when health or financial benefits infonnation is involved in the breach. 39
Agencies should bear in mind that notification when there is little or no risk of hann might create


38Non-Cabinet-level agencies should include their functional equivalent.
39For reference, the express language of the Privacy Act requires agencies to consider a wide range of hanns:
agencies shall "establish appropriate administrative, technical and physical safeguards to insure the security and
confidentiality of records and to protect against any anticipated threats or hazards to their security or integrity which
could result in substantial hann, embarrassment, inconvenience, or unfairness to any individual on whom
information is maintained." 5 u.S.C § 552a (e)(IO).




                                                         43 

unnecessary concern and confusion. 40 Additionally, under circumstances where notification
could increase a risk of harm, the prudent course of action may be to delay notification while
appropriate safeguards are put in place.

Five factors should be considered to assess the likely risk of harm:

    a. Nature ofthe Data Elements Breached. The nature of the data elements compromised is a
key factor to consider in determining when and how notification should be provided to affected
individuals. 41 It is difficult to characterize data elements as creating a low, moderate, or high risk
simply based on the type of data because the sensitivity of the data element is contextual. A
                                                                        42
name in one context may be less sensitive than in another context. In assessing the levels of
risk and harm, consider the data element(s) in light of their context and the broad range of
potential harms flowing from their disclosure to unauthorized individuals.

    b. Number ofIndividuals Affected. The magnitude of the number of affected individuals
may dictate the methodes) you choose for providing notification, but should not be the
determining factor for whether an agency should provide notification.

    c. Likelihood the Information is Accessible and Usable. Upon learning of a breach, agencies
should assess the likelihood personally identifiable information will be or has been used by
unauthorized individuals. An increased risk that the information will be used by unauthorized
individuals should influence the agency's decision to provide notification.

The fact the information has been lost or stolen does not necessarily mean it has been or can be
accessed by unauthorized individuals, however, depending upon a number of physical,
technological, and procedural safeguards employed by the agency. (See Attachment 1 above.) If
the information is properly protected by encryption, for example, the risk of compromise may be
low to non-existent. 43

Agencies will first need to assess whether the personally identifiable information is at a low,
moderate, or high risk of being compromised. The assessment should be guided by NIS T


40 Another consideration is a surfeit of notices, resulting from notification criteria which are too strict, could render
all such notices less effective, because consumers could become numb to them and fail to act when risks are truly
significant.
41 For example, theft of a database containing individuals' names in conjunction with Social Security numbers,
and/or dates of birth may pose a high level ofrisk of harm, while a theft of a database containing only the names of
individuals may pose a lower risk, depending on its context.
42 For example, breach of a database of names of individuals receiving treatment for contagious disease may pose a
higher risk of hann, whereas a database of names of subscribers to agency media alerts may pose a lower risk of
harm.
43 In this context, proper protection means encryption has been validated by NISI.




                                                          44 

2. Timeliness of the Notification

Agencies should provide notification without unreasonable delay following the discovery of a
breach, consistent with the needs of law enforcement and national security and any measures
necessary for your agency to determine the scope of the breach and, if applicable, to restore the
reasonable integrity of the computerized data system compromised.

Decisions to delay notification should be made by the Agency Head or a senior-level individual
he/she may designate in writing. In some circumstances, law enforcement or national security
considerations may require a delay if it would seriously impede the investigation of the breach or
the affected individual. However, any delay should not exacerbate risk or harm to any affected
individual( s).

3. Source of the Notification

In general, notification to individuals affected by the breach should be issued by the Agency
Head, or senior-level individual he/she may designate in writing, or, in those instances where the
breach involves a publicly known component of an agency, such as the Food and Drug
Administration or the Transportation Security Administration, the Component Head. This
demonstrates it has the attention of the chief executive of the organization. Notification
involving only a limited number of individuals (e.g., under 50) may also be issued jointly under
the auspices of the ChiefInformation Officer and the Chief Privacy Officer or Senior Agency
Official for Privacy. This approach signals the agency recognizes both the security and privacy
concerns raised by the breach.

When the breach involves a Federal contractor or a public-private partnership operating a system
of records on behalf of the agency, the agency is responsible for ensuring any notification and
corrective actions are taken. The roles, responsibilities, and relationships with contractors or
partners should be reflected in your breach notification policy and plan, your system certification
and accreditation documentation, and contracts and other documents.

4. Contents of the Notification

The notification should be provided in writing and should be concise, conspicuous, plain
language. The notice should include the following elements:

   •   A brief description of what happened, including the date(s) of the breach and of its
       discovery;




                                               45 

security standards and guidance. Other considerations may include the likelihood any
unauthorized individual will know the value of the information and either use the information or
sell it to others.

d. Likelihood the Breach May Lead to Harm

        1. Broad Reach ofPotential Harm. The Privacy Act requires agencies to protect against
any anticipated threats or hazards to the security or integrity of records which could result in
"substantial harm, embarrassment, inconvenience, or unfairness to any individual on whom
information is maintained. ,,44 Additionally, agencies should consider a number of possible harms
associated with the loss or compromise of information. Such harms may include the effect of a
breach of confidentiality or fiduciary responsibility, the potential for blackmail, the disclosure of
private facts, mental pain and emotional distress, the disclosure of address information for
victims of abuse, the potential for secondary uses of the information which could result in fear or
uncertainty, or the unwarranted exposure leading to humiliation or loss of self-esteem.

        2. Likelihood Harm Will Occur. The likelihood a breach may result in harm will depend
on the manner of the actual or suspected breach and the type(s) of data involved in the incident.
Social Security numbers and account information are useful to committing identity theft, as are
date of birth, passwords, and mother's maiden name. If the information involved, however, is a
name and address or other personally identifying information, the loss may also pose a
significant risk of harm if, for example, it appears on a list of recipients patients at a clinic for
treatment of a contagious disease.

In considering whether the loss of information could result in identity theft or fraud, agencies
                                                            45
should consult guidance from the Identity Theft Task Force

    e. Ability ofthe Agency to Mitigate the Risk of Harm. Within an information system, the
risk of harm will depend on how the agency is able to mitigate further compromise of the
system( s) affected by a breach. In addition to containing the breach, appropriate
countermeasures, such as monitoring system(s) for misuse of the personal information and
                                                    46
patterns of suspicious behavior, should be taken. Such mitigation may not prevent the use of
the personal information for identity theft, but it can limit the associated harm. Some harm may
be more difficult to mitigate than others, particularly where the potential injury is more
individualized and may be difficult to determine.


445 USC § 552a(e)(IO).
45 See "Recommendations for Identity Theft Related Data Breach Notification"

(www. whitehouse. gov 10m blm em oranda/fy2006!task force theft m em o. pdf) .
46 For example, if the infonnation relates to disability beneficiaries, monitoring a beneficiary database for requests
for change of address may signal fraudulent activity.




                                                         46 

    •   To the extent possible, a description of the types of personal infonnation involved in the
        breach (e.g., full name, Social Security number, date of birth, home address, account
        number, disability code, etc.);
    •   A statement whether the infonnation was encrypted or protected by other means, when
        detennined such infonnation would be beneficial and would not compromise the security
        of the system;
    •   What steps individuals should take to protect themselves from potential hann, if any;
    •   What the agency is doing, if anything, to investigate the breach, to mitigate losses, and to
        protect against any further breaches; and
    •   Who affected individuals should contact at the agency for more infonnation, including a
        toll-free telephone number, e-mail address, and postal address.

Given the amount of infonnation required above, you may want to consider layering the
infonnation as suggested in Section 5 below, providing the most important infonnation up front,
with the additional details in a Frequently Asked Questions (F AQ) fonnat or on your web site. If
you have knowledge the affected individuals are not English speaking, notice should also be
provided in the appropriate language( s). You may seek additional guidance on how to draft the
notice from the Federal Trade Commission, a leader in providing clear and understandable
notices to consumers, as well as from communication experts who may assist you in designing
               47
model notices. A standard notice should be part of your approved breach plan.

5. Means of Providing Notification

The best means for providing notification will depend on the number of individuals affected and
what contact infonnation is available about the affected individuals. Notice provided to
individuals affected by a breach should be commensurate with the number of people affected and
the urgency with which they need to receive notice. The following examples are types of notice
which may be considered.

    a. Telephone. Telephone notification may be appropriate in those cases where urgency may
dictate immediate and personalized notification and/or when a limited number of individuals are
affected. Telephone notification, however, should be contemporaneous with written notification
by first-class mail.




47 Additional guidance on how to draft a notice is available in the FTC publication titled "Dealing with a Data
Breach" Cwww.ftc.gov/bcp/edu/microsites/idtheft/business/data-breach.htmll. Although the brochure is designed for
private sector entities that have experienced a breach, it contains sample notice letters that could also serve as a
model for federal agencies. You may also seek guidance from communications experts who may assist you in
designing model notices.




                                                      47 

    b. First-Class Mail. First-class mail notification to the last known mailing address of the
individual in your agency's records should be the primary means notification is provided. Where
you have reason to believe the address is no longer current, you should take reasonable steps to
update the address by consulting with other agencies such as the US Postal Service. The notice
should be sent separately from any other mailing so that it is conspicuous to the recipient. If the
agency which experienced the breach uses another agency to facilitate mailing (for example, if
the agency which suffered the loss consults the Internal Revenue Service for current mailing
addresses of affected individuals), care should be taken to ensure the agency which suffered the
loss is identified as the sender, and not the facilitating agency. The front of the envelope should
be labeled to alert the recipient to the importance of its contents, e.g., "Data Breach Information
Enclosed" and should be marked with the name of your agency as the sender to reduce the
likelihood the recipient thinks it is advertising mail.

    c. E-Mail. E-mail notification is problematic, because individuals change their e-mail
addresses and often do not notify third parties of the change. Notification by postal mail is
preferable. However, where an individual has provided an e-mail address to you and has
expressly given consent to e-mail as the primary means of communication with your agency, and
no known mailing address is available, notification bye-mail may be appropriate. E-mail
notification may also be employed in conjunction with postal mail if the circumstances of the
breach warrant this approach. E-mail notification may include links to the agency and
www.USA.gov 48 web sites, where the notice may be "layered" so the most important summary
facts are up front with additional information provided under link headings.

    d. Existing Government Wide Services. Agencies should use Government wide services
already in place to provide support services needed, such as USA Services, including toll free
number of l-800-FedInfo and www.USA.gov.

    e. N ewsoaoers or other Public Media Outlets. Additionally, you may supplement individual
notification with placing notifications in newspapers or other public media outlets. You should
also set up toll-free call centers staffed by trained personnel to handle inquiries from the affected
individuals and the public.

    f. Substitute Notice. Substitute notice in those instances where your agency does not have
sufficient contact information to provide notification. Substitute notice should consist of a
conspicuous posting of the notice on the home page of your agency's web site and notification to
major print and broadcast media, including major media in areas where the affected individuals
reside. The notice to media should include a toll-free phone number where an individual can
learn whether or not his or her personal information is included in the breach.

48   The current domain name for the Federal Internet portal required by section 204 of the E-Govemment Act of 2002
IS   www.usa.gov .




                                                        48 

    g. Accommodations. Special consideration to providing notice to individuals who are
visually or hearing impaired consistent with Section 508 of the Rehabilitation Act of 1973 should
be given. Accommodations may include establishing a Telecommunications Device for the
Deaf (TDD) or posting a large type notice on the agency web site.

6. Who Receives Notification: Public Outreach in Response to a Breach

    a. Notification ofIndividuals. The final consideration in the notification process when
providing notice is to whom you should provide notification: the affected individuals, the public
media, and/or other third parties affected by the breach or the notification. Unless notification to
individuals is delayed or barred for law enforcement or national security reasons, once it has
been determined to provide notice regarding the breach, affected individuals should receive
prompt notification.

   b. Notification of Third Parties including the Media. If communicating with third parties
regarding a breach, agencies should consider the following.

        1. Careful Planning. An agency's decision to notify the public media will require
careful planning and execution so that it does not unnecessarily alarm the public. When
appropriate, public media should be notified as soon as possible after the discovery of a breach
and the response plan, including the notification, has been developed. Notification should focus
on providing information, including links to resources, to aid the public in its response to the
breach. Notification may be delayed upon the request of law enforcement or national security
agencies as described above in Section 2. To the extent possible, when necessary prompt public
media disclosure is generally preferable because delayed notification may erode public trust.

         2. Web Posting. Agencies should post information about the breach and notification in a
clearly identifiable location on the home page of your agency web site as soon as possible after
the discovery of a breach and the decision to provide notification to the affected individuals. The
posting should include a link to Frequently Asked Questions (F AQ) and other talking points to
                                                                             49
assist the public's understanding of the breach and the notification process     The information
should also appear on the www.USA.gov web site. You may also consult with GSA's USA
Services regarding using their call center.

        3. Notification of other Public and Private Sector Agencies. Other public and private
sector agencies may need to be notified on a need to know basis, particularly those that may be



49 See the FAQ posted by the Department of Veterans Affairs in response to the May 2006 incident for examples of
links to identity theft resources and a sample FAQ (www.usa.gov/veteransinfo.shtm l).




                                                     49 

affected by the breach or may playa role in mitigating the potential harms stemming from the
       50
breach

       4. Congressional Inquiries. Agencies should be prepared to respond to inquires from
other governmental agencies such as the Government Accountability Office and Congress.

    c. Reassess the Level of Impact Assigned to the Information. After evaluating each of these
factors, you should review and reassess the level of impact you have already assigned to the
information using the impact levels defined by the NIST. 51 The impact levels -low, moderate,
and high, describe the (worst case) potential impact on an organization or individual if a breach
         · occurs. 52
of secunty

    •   Low: the loss of confidentiality, integrity, or availability is expected to have a limited
        adverse effect on organizational operations, organizational assets or individuals
    •   Moderate: the loss of confidentiality, integrity, or availability is expected to have a
        serious adverse effect on organizational operations, organizational assets or individuals.
    •   High: the loss of confidentiality, integrity, or availability is expected to have a severe or
        catastrophic adverse effect on organizational operations, organizational assets or
        individuals.

The impact levels will help determine when and how notification should be provided. Where
there is a range of risk levels attributed to the factors, the decision to provide notification should
give greater weight to the likelihood the information is accessible and usable and whether the
breach may lead to harm. If agencies appropriately apply the five risk factors discussed in
section 1 of this attachment within the fact-specific context, it is likely notification will only be
given in those instances where there is a reasonable risk of harm and will not lead to the overuse
of notification.




50 For example, a breach involving medical infonnation may warrant notification of the breach to health care

providers and insurers through the public or specialized health media, and a breach of financial information may
warrant notification to financial institutions through the federal banking agencies.
51 See FIPS 199 and Attachment 1 of this memorandum. Reassessment is suggested as the context of any breach
may alter your original designation.
52 The determination of the potential impact of loss of information is made by the agency during an information
system's certification and accreditation process.




                                                      50 

Attachment 4: Rules and Consequences

A. New Requirement: Rules and Consequences Policy.

Fairness requires that managers, supervisors and employees be informed and trained regarding
their respective responsibilities relative to safeguarding personally identifiable information and
the consequences and accountability for violation of these responsibilities. Therefore, it is the
responsibility of each agency head to develop and implement an appropriate policy outlining the
rules of behavior and identifying consequences and corrective actions available for failure to
follow these rules. Consequences should be commensurate with level of responsibility and type
of personally identifiable information involved. Supervisors also must be reminded of their
responsibility to instruct, train and supervise employees on safeguarding personally identifiable
information. Agencies should develop and implement these policies in accordance with the
agency's respective existing authorities.

As with any disciplinary action, the particular facts and circumstances, including whether the
breach was intentional, will be considered in taking appropriate action. Supervisors also should
be reminded that any action taken must be consistent with law, regulation, applicable case law,
and any relevant collective bargaining agreement. Supervisors should understand they may be
subject to disciplinary action for failure to take appropriate action upon discovering the breach or
failure to take required steps to prevent a breach from occurring.

Agencies having questions regarding development of a rules and consequences policy may
contact OPM's Center for Workforce Relations and Accountability Policy at (202) 606-2930.

1. Affected Individuals. At a minimum, each agency should have a documented policy in place
which applies to employees of the agency (including managers), and its contractors, licensees,
certificate holders, and grantees.

2. Affected Actions. The agency's policy should describe the terms and conditions affected
individuals shall be subject to and identify available corrective actions. Rules of behavior and
corrective actions should address the following:

     •   Failure to implement and maintain security controls, for which an employee is
         responsible and aware, for personally identifiable information regardless of whether such
         action results in the loss of control S3 or unauthorized disclosure of personally identifiable
         information;


53Here, "control" means the authority of the government agency that originates information, or its successor in
function, to regulate access to the infonnation. Having control is a condition or state and not an event. Loss of
control is also a condition or state which mayor may not lead to an event, i.e., a breach.




                                                       51 

   •   Exceeding authorized access to, or disclosure to unauthorized persons of, personally
       identifiable infonnation;
   •   Failure to report any known or suspected loss of control or unauthorized disclosure of
       personally identifiable infonnation; and
   •   For managers, failure to adequately instruct, train, or supervise employees in their
       responsibilities.

3. Consequences. Applicable consequences may include reprimand, suspension, removal, or
other actions in accordance with applicable law and agency policy. The minimum consequence
agencies should consider is prompt removal of authority to access infonnation or systems from
individuals who demonstrates egregious disregard or a pattern of error in safeguarding personally
identifiable infonnation.




                                              52 

                                                                            APPENDIX V 



                                               U.S. Department of Jnstice




  D:::C 2 6 2007

MEMORANDUM FOR ALL DEPARTMENT OF JUSTICE EMPLOYEES

FROM:                Vance E. Hitch
                     ChlefInformatlOn Officer
                                                pq /
                                                   V~
                                                                J'-7~
SUBJECT:              Protection of Department Sensitive Information on
                      Laptop and Mobile Computing Devices

The Department of Justice maintains a significant amount of sensitive information, including
Personally Identifiable Information (PH), on its computer systems. The purpose ofthis
memorandum is to remind Department personnel of their responsibility to protect Department
information on laptops and other mobile computing devices and on removable media. This
memorandum also reminds personnel oftheir responsibility to report the loss of sensitive data.
    • All Department laptop computers and mobile computing devices processing sensitive
       information must employ Department approved encryption using Federal Information
       Processing Standard FIPS 140-2 (as amended) compliant software.

   •   All Department removable media which contains sensitive information and is being
       transported outside of the Department's secured, physical perimeter should employ
       Department approved encryption using Federal Information Processing Standard FIPS
       140-2 (as amended) compliant software and remain in the personal custody of the
       individual when outside of Departmental facilities.

   •   All incidents involving known loss of PH must be reported within one hour of discovery or
       detection to the DOJCERT at (866) 874-2378. Any loss of any data storage devices, such
       as laptop computers, flash drives, disks, and tapes, must be reported within the same one
       hour time frame.

If you have any questions or require additional information, please contact Kevin Deeley, Deputy
Director of the Information Technology Security Staff on (202) 353-2421 or
mailto:kevin.deeley@usdoj.gov.




                                            53 

                                                                                 APPENDIX VI

             CIVIL DIVISION MANAGEMENT’S RESPONSE
                                                       u.s. Department of Justice
                                                       Civil Division


                                                       Washingtoll, D.C. 20530




                                                       July 6, 2009



MEMORAA'DUM

To:       Raymond J. Beaudet
          Assistant Inspector General for Audit

From:     Kelmeth L. Zwick "'r  .
                                '­
          Director, Office of Management Programs
          Civil Division

Re:       Draft Audit Report: The Civil Division's Laptop Computer Encryption Program and
          Practices

       This memorandum is in response to the Draft Audit Report issued by the Office of the
Inspector General (OIG) on May \9,2009. The Civil Division appreciates the significant work
perfonned by the OIG in auditing the Civil Division's encryption policies and practices, and
agrees with the reconunendations set forth in the report. The Division recogni zes the need to
adequately safeguard its data, and has reviewed the repoli's recommendations from this
perspective.

         The report discusses deficiencies in data encryption by contractors and subcontractors,
and in the security instructions given them. As an initi al matter, we note that the majority of
sllch findings apply to expelis, neutrals, and consultants hired by the Division under OBD-47
agreements. Unlike the Mega-3 contractors also discussed in the report, OBD-47 contractors
are not often large litigation support fin11S , but individuals from teach ing hospita ls, academic
institutions, or private practice. OBD experts generally do not provide expert services as a
primary vocation, but regard their participation in Civil Division cases as a public service. As
indi vidual experts, they are not necessarily proficient with technology, nor do they have IT
sta ffs on which to rely. The Civil Division is conmlitted to safeguarding its data as
recomm ended by the OIG. However, because of the varied and individual nature of such
expel1 services, imposing securi ty requirements without compromising our ability to produce



                                                54 

expert testimony in fast-paced liti gation presents spec ial challenges.'

         The Civil Di vision maintains a laptop computer tracking database. As noted in the
report, this was necessary in part because of issues with the existing data in the ARGrS
database prov ided by the Justice Management Division. The repOli notes discrepancies in both
the ARGIS database and in the Division's intemallaptop computer tracking database.
Although the Division is not aware of any errors currently in the intema l laptop computer
tracking database, it will be further examined to ensure accuracy. We note, however, that both
examples of inconsistenci es in the two databases given in the report point to inaccuracies in
ARGIS, rather than in the Civil Division laptop computer tracking database. Consistent with
the report's recommendations, the Civil Di vision has recently completed a physical inventory
of all laptop computers, and a wall-to-wall inventory of all accountable property. The Civil
Di vis ion is in the process of reconciling the ARGIS database with these inventori es to ensure
accuracy. JMD has advised the Division that they will retire the agi ng ARGrS database system
on November 1, 2009, and mi grate data to the new Uni center Asset Portfolio Management
(UAPM) system.

        Of note, the OrG report includes the result of testing a sample of computers in the Civi l
Di vision lending pool for the presence of a wam ing bamler. The auditors found that 76% of
the 47 laptop computers tested did not contain warning baiUlers.' Further investi gation by the
Civil Di vision indicates that thi s issue was confined to a single model of laptop computer,
whi ch compri sed only 46% o f the laptop computer lending program inventory. Since thi s
om ission was discovered, laptop computer lending practices have been modified to document
the presence of the banner on each loaner laptop computer before it is issued to the user.

        In the course of the investigation, the auditors spoke with four subcontractors under the
Mega-3 contract who reported having unencrypted laptop computers. Fo llow-up by the Civil
Division indicates that three of those subcontractors did use laptop computers, but those
computers did not contain DOJ data. However, the remaining subcontractor did not comply
wi th Civil Division requirements regarding data security. Based on the OrG's investigation,
mitigating steps are being taken with regard to the remaining Mega-3 subcontractor, and all
Mega-3 contractors have received further security guidance and training.




        , The OrG report states that the Civil Division initially provided a report li sting 1,483
vendors hi red under OBD-47 agreements. Actually, thi s represented the total number ofOBD-47
agreements in force, rather than the number of unique vendors. Typically, one OBD-47 is
executed for a contractor's wo rk on each matter. Accordingly, a single ex pert, neutral , or
consultant may be party to mUltip le OBD-47 agreements. The fi gure stated in the OIG report of
approxi mately 374 unique vendors is correct.

        2 The OIG report notes that thi s is a non-statistical sample that does not allow projection
of the results to all Civil Division laptop computers.


                                                 55 

                            RESPONSE TO RECOMMENDATIONS

       The Civil Division agrees with the recommendations set fOlih in the OIG report. Below
are comments speci fic to each recommendation and expected times for implementation.

        1. Implemellt procedures for ellsurillg tlraltlre official illvelltOlY database, ARGIS, or
allY replacemellt system, mailltaills accllrale alld reliable illformatiollfor all Civil Divisioll
laptop computers.

        This recommendation has al ready been implemented in part. Previously, the
Accountable Propel1y Officer for the Civ il Division had arllotated the ARGIS database to
reflect o lder units that had been excessed. As noted in the report, authority to make changes to
ARGIS database records to directly reflect these annotations was granted to the Civi l Division
in 2007; however, no training nor any infonnation on these new features was provided. The
annotations regarding excessed units were ultimatel y incorporated into the ARGIS database at
the comp letion of the Civil Di vision's Physical Inventory of Capitalized Property and Portable
Computers on March 26, 2009.

        To help ensu re the accuracy of the current ARGIS database, the Civil Division has in
place procedures for conducting a physical inventory of laptop computers annual ly, and a
wall-to-wall inventory of all accountable property every two years . Previously, the results of
this audit were provided to JMD so ARGIS could be updated, but are now incorporated directly
into the ARGIS database to reduce the possibility of error. The most recent laptop compu ter
inventory was completed on March 26, 2009. The most recent wall-to-wall inventory was
completed on May 21, 2009.

       JMD has infonned us that the conversion to the UAPM system (the successor to the
ARGIS system), wi ll take place on November 1,2009. The Civil Division looks forward to
working with JMD to obtain adequate training and documentation to help ensure that it is
accurately maintained.

         2. Ellsure the laptop admillistrator 's gllide is IIsed to docllm ellt the sllccessflll
illstallatioll of ellClyptioll software all Civil Divisioll laptop comp"ters.

         This recommendation has been implemented. The Civil Division's laptop computer
lend ing program tracking database has been updated to require the administrator to record
whether a loaner laptop computer displays proper encryption infonnation as a final step before
it is released to the user. The relevant database screen now contains a link to the Laptop
Administrator's Guide for reference. Screen shots of the relevant portion of the database are at
Appendix A.

        3. Label re-imagillg comp"ters to illdicate that they are 1I0t el1C1ypted alld 1I0t for
operatiollaillse.

        This recommendation has been implemented. The plu'ase "Not encrypted - not for



                                                    56 

operational use" has been permanently marked on the re-imaging laptop computers.

         4. Ellsure the laplop admillistralor 's guide is used to verify Ihat system wamillg
ballllers are ills tolled 011 all Civil Divisioll laptop compulers as required by DO} policy.

        This recommendation has been implemented. The Civil Di vision's laptop computer
lending program tracking database has been updated to require the administrator to record
whether a loaner laptop computer displays the warning bamler as a final step before it is
released to the user. The relevant database screen now contains a link to the Laptop
Administrator's Guide for reference. Screen shots of the relevant portion of the database are at
Appendix A.

         5. Develop alld mailltaill all illvelllolY of authorized or approved 1I01l-Civil Divisioll
oWll ed laplop compulers for cOlllraclors, subcolliractors, alld olher elltilies providillg cOlllract
support services for the Civil Divisioll .

         This recommendation has been impl emented for contractors, subcontractors, and other
entities under the Mega-3 contract.

        The process for authorizing the use of laptop computers not owned by the Civil
Division by contractors, subcontractors, and other entities under hired pursuant to an OBD-47
will be part ofa comprehensive set of procedures. Please see the response to reconunendation
#6.
        6. Ellsure that alllloll-Civil Divisioll laptop compulers used to process DO} data are
ellclypled or require call tractors to use ellcl)'pted Civil Divisioll provided hardware.

       This recommendation has been inlplemented for contractors under the Mega-3 contract.

          Implementing this recommendation for contractors hired under an OBD-47 will likely
require a comprehensive set of new procedures, including changes in contract language,
teclmical support resources, additional hardware acquisition, additional persolmel, and training.
It is likely that some OBD-47 contractors will have the resources to comply w ith thi s
requirement. For others who may lack the technical sophistication to comply with the
requirement, the Civi l Division may have to provide some limited support or encrypted
hardware. Any such hardware would have to be identified, tested , procured, and dep loyed. [t
is likely that the administrative overhead for this will require additional persolmel. Finally,
those acting as points of contact for OBD-47 contractors will require training in the additional
contracting requirements and security procedures. We anticipate it will take 9-12 months to
full y implem ent this recommendation.

       7. Ellsure thai all cOlltracl support providers are aware of security illformatioll
procedures for halldling DO} data in accordallce with DO} policy.

       All Mega-3 contractors have been provided this infonnation, and required to pass it
through to sub-contractors. As to OBD-47 contractors, it will be part of the comprehensive



                                                  57 

program outlined in response to reconunendation # 6. To ensure security awareness, the Civil
Division will conduct periodic spot-checks of contract support providers.




 Note: Appendix A of the Civil Division Management’s response was
 omitted at the request of the Civil Division because it contained
 sensitive information.




                                             58 

                                                          APPENDIX VII 



            OFFICE OF THE INSPECTOR GENERAL 

           ANALYSIS AND SUMMARY OF ACTIONS 

            NECESSARY TO CLOSE THE REPORT



       The Civil Division was provided a draft of this audit report and
their comments on the findings and recommendations were considered
in preparing this Analysis and Summary of Actions Necessary to Close
the Report. The Civil Division’s response is incorporated as Appendix
VI of this report. Since the Civil Division concurred with all of the
recommendations, this report is being issued resolved. Our analysis of
the Civil Division’s responses and a summary of actions necessary to
close the recommendations are provided below.

Analysis of Civil Division Response

      In response to our audit report, the Civil Division concurred with
our recommendations and discussed the actions it will implement in
response to our findings. In addition, the Civil Division responded to
information contained in our report unrelated to our recommendations.
We respond to these statements before discussing the Civil Division’s
specific responses to each of our recommendations and the actions
necessary to close those recommendations.

       The Civil Division stated that the OBD 47 contractors regard their
participation in Civil Division cases as a public service, and that these
experts are not necessarily proficient with technology, nor do they
have IT staffs on which to rely. In addition, the Civil Division stated
that it is committed to safeguarding its data by imposing appropriate
security requirements, but the Civil Division needs to do so without
compromising its ability to produce expert testimony. We recognize
this challenge with acquiring the OBD 47 contractors. However, in our
judgment given the sensitive nature of the work performed, the Civil
Division should ensure that the OBD experts use encrypted laptops.
Therefore, we fully support the Civil Division’s efforts outlined in its
response to recommendation 6 and encourage the Civil Division to
explore all options for protecting sensitive data on laptops, such as
providing encrypted hardware, support, and training to the OBD 47
contractors.

      The Civil Division stated that it is not aware of any errors in its
internal laptop computer tracking database and that it will further
examine the database to ensure its accuracy. In our report, we
pointed out discrepancies between the ARGIS database and the OLS



                                    59 

laptop tracking database and provided an example where information
contained in ARGIS did not reconcile with the OLS database. To help
ensure the accuracy of the current ARGIS database or any
replacement system, the Civil Division has recently completed a
physical inventory of all laptop computers and a wall-to-wall inventory
of all accountable property. We agree that these efforts should help to
ensure the accuracy of the Civil Division’s laptop inventory.

      The Civil Division is correct in stating that our findings regarding
the presence of a warning banner on computers in its lending pool
does not allow projection of the test results to all laptops in its
inventory. We reported that 37 of the 49 (76 percent) Civil Division
laptop computers we tested did not employ a DOJ system warning
banner. The Civil Division stated that it reviewed its laptop inventory
and found that this issue was confined to a single laptop model that
comprised 46 percent of its laptop computer inventory. We note that
while this is less than the 76 percent of computers without the
required security banner in our sample, this is still a substantial
number of non-compliant laptops.

       The Civil Division stated it followed-up with four subcontractors
under the Mega 3 contract that we reported as having unencrypted
laptop computers. The Civil Division indicated that three of those
subcontractors used laptop computers that did not contain DOJ data,
while the fourth subcontractor failed to comply with Civil Division
requirements. Based on our survey and recommendations 5 - 7, the
Civil Division has taken corrective steps with regards to all Mega 3
contractors and has developed a comprehensive plan for the OBD 47
contractors to develop an inventory of approved laptop computers for
contractors and subcontractors, ensure that all DOJ data are stored on
encrypted devices, and ensure that all contract support providers are
aware of security information procedures.


Summary of Actions Necessary to Close the Recommendations

1. Resolved. The Civil Division concurred with the OIG’s
   recommendation to implement procedures for ensuring that the
   official inventory database, ARGIS, or any replacement system
   maintains accurate and reliable information for all Civil Division
   laptop computers. To help ensure the accuracy of the current
   ARGIS database, the Civil Division conducted a physical inventory
   of laptop computers on March 26, 2009. JMD has informed the Civil
   Division that the conversion to the Unicenter Asset Portfolio


                                    60 

   Management (UAPM), the successor to the ARGIS database, will
   occur on November 1, 2009. This recommendation can be closed
   when we receive documentation showing that the UAPM system is
   tracking the Civil Division’s laptop inventory.

2. Closed. This recommendation is closed based on documentation
   provided by the Civil Division showing that the laptop computer
   lending program tracking database has been updated to require the
   administrator to record whether a loaner laptop computer displays
   proper encryption information.

3. Resolved. The Civil Division concurred with the OIG’s
   recommendation to label re-imaging computers to indicate that
   they are not encrypted and not for operational use. The Civil
   Division stated that the phrase, “Not encrypted – not for
   operational use” has been permanently marked on the re-imaging
   laptop computers. This recommendation can be closed when we
   receive documentation showing that the re-imaging laptop
   computers are labeled to indicate that they are not encrypted and
   not for operational use.

4. Closed. This recommendation is closed based on documentation
   provided by the Civil Division showing that the laptop computer
   lending program tracking database has been updated to require the
   administrator to record whether a loaner laptop computer displays
   the warning banner.

5. Resolved. The Civil Division concurred with the OIG’s
   recommendation to develop and maintain an inventory of
   authorized or approved non-Civil Division owned laptop computers
   for contractors, subcontractors, and other entities providing
   contract support services for the Civil Division. The Civil Division
   stated that this recommendation will take 9-12 months to fully
   implement. This recommendation can be closed when we receive
   documentation showing that an inventory of authorized non-Civil
   Division owned laptop computers for contractors, subcontractors,
   and other entities has been created.

6. Resolved. The Civil Division concurred with the OIG’s
   recommendation to ensure that all non-Civil Division laptop
   computers used to process DOJ data are encrypted or that the Civil
   Division requires contractors to use encrypted hardware provided
   by the Civil Division. The Civil Division stated that this
   recommendation will take 9-12 months to fully implement. This


                                   61 

  recommendation can be closed when we receive documentation
  showing that all non-Civil Division laptop computers used to process
  DOJ data are encrypted or that the Civil Division requires
  contractors to use encrypted Civil Division-provided hardware.

7. Resolved. The Civil Division concurred with the OIG’s
   recommendation to ensure that all contract support providers are
   aware of security procedures for handling DOJ data in accordance
   with DOJ policy. The Civil Division stated that this recommendation
   will take 9-12 months to fully implement. This recommendation
   can be closed when we receive documentation showing that all
   contract support providers are aware of security procedures for
   handling DOJ data in accordance with DOJ policy.




                                  62 

